1a
APPENDIX A
CHILDREN’S HOSPITAL ASSOCIATION
OF TEXAS, et al., Appellees
v.
Alex Michael AZAR, II, in his ofﬁcial capacity,
Secretary, Department of Health and Human
Services, et al., Appellants
No. 18-5135
United States Court of Appeals
District of Columbia Circuit
Argued April 9, 2019
Decided August 13, 2019
Appeal from the United States District Court for
the District of Columbia (No. 1:17-cv-00844)
Tara S. Morrissey, Attorney, United States Department
of Justice, argued the cause for the appellants. Mark
B. Stern and Samantha L. Chaifetz, Attorneys, Robert
P. Charrow, General Counsel, United States Department of Health & Human Services, Janice L. Hoffman,
Associate General Counsel, Susan M. Lyons, Deputy
Associate General Counsel, and David L. Hoskins,
Attorney, were with her on brief.
David B. Salmons, Washington, DC, argued the cause
for the appellees. Geraldine E. Edens, Michael E. Kenneally, Washington, DC, and Susan Feigin Harris were
with him on brief. Christopher H. Marraro, Washington, DC, entered an appearance.

2a
Daniel G. Jarcho and Michael H. Park, Washington,
DC, were on brief for the amicus curiae Children’s Hospital Association in support of the appellees and in
support of afﬁrmance.
Before: Henderson and Rogers, Circuit Judges,
and Sentelle, Senior Circuit Judge.
Karen LeCraft Henderson, Circuit Judge
Under the Medicaid Act (Act), the federal government provides each state funds for distribution to
hospitals that serve a disproportionate number of lowincome patients. See 42 U.S.C. § 1396-1. A state distributes the funds through Disproportionate Share
Hospital (DSH) payments. See id. § 1396r-4(b), (c). A
hospital may not receive a DSH payment that exceeds
its “costs incurred” in furnishing hospital services to
low-income patients. Id. § 1396r-4(g)(1)(A). “Costs incurred” are, inter alia, “determined by the Secretary”
of the United States Department of Health and Human Services (Secretary). Id. In 2017, the Secretary
promulgated a regulation deﬁning “costs incurred.”
Medicaid Program; Disproportionate Share Hospital
Payments–Treatment of Third Party Payers in Calculating Uncompensated Care Costs, 82 Fed. Reg. 16,114,
16,122 (Apr. 3, 2017) (“2017 Rule”). The plaintiffs, a
group of children’s hospitals that receive DSH payments, argue that the regulatory deﬁnition is contrary
to the Medicaid Act and otherwise arbitrary and capricious. The district court agreed that the deﬁnition is
inconsistent with the Act and vacated the 2017 Rule.

3a
Children’s Hosp. Ass’n of Tex. v. Azar, 300 F. Supp. 3d
190 (D.D.C. 2018). We now reverse.
I.

Background

“Medicaid is a cooperative federal-state program
through which the Federal Government provides ﬁnancial assistance to States so that they may furnish
medical care to needy individuals.” Wilder v. Va. Hosp.
Ass’n, 496 U.S. 498, 502, 110 S.Ct. 2510, 110 L.Ed.2d
455 (1990). States implement their own Medicaid
plans, subject to the federal government’s review and
approval. See 42 U.S.C. § 1396a. Treating the indigent
proves costly even for hospitals that receive Medicaid
payments. Indeed, not all hospital services are covered
by Medicaid; not all costs associated with covered services are allowed by Medicaid; and Medicaid does not
fully reimburse hospitals for all allowable costs associated with covered services. Recognizing this, the Congress authorizes supplemental payments (“DSH
payments”) to hospitals that serve a disproportionate
share of low-income patients (“DSH hospitals”). 42
U.S.C. § 1396a(13)(A)(iv) (requiring that Medicaid
payment rates “take into account (in a manner consistent with section 1396r-4 of this title) the situation
of hospitals which serve a disproportionate number of
low-income patients with special needs”); 42 U.S.C.
§ 1396r-4 (entitled “Adjustment in payment for inpatient hospital services furnished by disproportionate
share hospitals”). There is both a state-speciﬁc and a
hospital-speciﬁc limit on DSH payments. The statespeciﬁc limit—not at issue in this case—dictates that

4a
all DSH payments to DSH hospitals within a single
state must be drawn from the same pool of federal
funds. See 42 U.S.C. § 1396r-4(f ). The hospital-speciﬁc
limit, which is at issue in this case, dictates that a DSH
payment to a single hospital cannot exceed:
[T]he costs incurred during the year of furnishing hospital services (as determined by
the Secretary and net of payments under this
subchapter, other than under this section, and
by uninsured patients) by the hospital to individuals who either are eligible for medical assistance under the State plan or have no
health insurance (or other source of third
party coverage) for services provided during
the year.
42 U.S.C. § 1396r-4(g)(1)(A). This sentence—although
not the picture of clarity—establishes a few matters
clearly. A DSH hospital cannot receive a DSH payment
that exceeds its “costs incurred during the year of furnishing hospital services” to Medicaid-eligible and uninsured individuals. The Secretary is assigned the
task of determining “costs incurred.” And “costs incurred” are “net of payments under this subchapter,
other than under this section, and by uninsured patients”; in other words, payments made by Medicaid
and uninsured individuals must be subtracted out
when calculating a hospital’s “costs incurred.” The dispute here is about whether payments made by Medicare and private insurers should also be subtracted
out.

5a
In 2003, the Congress enacted legislation requiring states to submit annual reports and independent
certiﬁed audits regarding their DSH programs. See 42
U.S.C. § 1396r-4(j). The reports must identify which
hospitals receive DSH payments and the audits must
verify that the DSH payments comply with the statutory requirements. Id.
In 2008, the Centers for Medicare & Medicaid Services (CMS), using the authority delegated it by the
Secretary, promulgated a regulation implementing the
reporting and auditing requirements. Medicaid Program; Disproportionate Share Hospital Payments, 73
Fed. Reg. 77,904 (Dec. 19, 2008) (“2008 Rule”). The
2008 Rule provided that each state must report to
CMS the cost of each DSH hospital’s “Total Medicaid
Uncompensated Care.” Id. at 77,950 (codiﬁed at 42
C.F.R. § 447.299(c)(11)). The 2008 Rule did not state
whether third-party payments, including payments by
Medicare and private insurers, were meant to be included in calculating the amount. See id. Three courts
of appeals concluded from this silence that the 2008
Rule left uncertain whether these payments should be
considered. See Children’s Health Care v. Ctrs. for
Medicare & Medicaid Servs., 900 F.3d 1022, 1025 (8th
Cir. 2018); Children’s Hosp. of the King’s Daughters,
Inc. v. Azar, 896 F.3d 615, 621 (4th Cir. 2018); N.H.
Hosp. Ass’n v. Azar, 887 F.3d 62, 75 (1st Cir. 2018). One
court of appeals concluded that the 2008 Rule made
clear that these payments should not be considered.
See Tenn. Hosp. Ass’n v. Azar, 908 F.3d 1029, 1043–44
(6th Cir. 2018).

6a
In 2010, CMS posted a Frequently Asked Questions document on its website clarifying that payments
made by Medicare and private insurers should be included. See CMS, Additional Information on the DSH
Reporting and Audit Requirements, FAQs 33 and 34
(2010), https://www.medicaid.gov/medicaid/finance/
downloads/part-1-additional-info-on-dsh-reporting-andauditing.pdf. A number of hospitals brought suit, arguing that the FAQs posting was invalid because it
represented a substantive policy change without notice
and an opportunity for public comment. In response,
CMS issued a notice of proposed rulemaking and subsequently promulgated the 2017 Rule. The 2017 Rule
establishes that payments by Medicare and private insurers are to be included in calculating a hospital’s
“costs incurred.” 82 Fed. Reg. at 16,122 (codiﬁed at 42
C.F.R. § 447.299(c)(10)). It provides, inter alia, “costs
. . . [a]re deﬁned as costs net of third-party payments,
including, but not limited to, payments by Medicare
and private insurance.” Id. The Secretary explains
that considering payments by Medicare and private insurers “best fulﬁlls the purpose of the DSH statute,” is
“necessary to ensure that limited DSH resources are
allocated to hospitals that have a net ﬁnancial shortfall in serving Medicaid patients” and “is necessary to
facilitate the Congressional directive . . . of limiting the
DSH payment to a hospital’s uncompensated care
costs.” Id. at 16,116, 16,118. He maintains that the
2017 Rule did not effect a legal change but instead continued the preexisting policy. Id. at 16,119.

7a
The plaintiffs are four children’s hospitals in Minnesota, Virginia and Washington and an association
representing eight children’s hospitals in Texas. They
claim the 2017 Rule violates the Administrative Procedure Act because it exceeds the Secretary’s authority
under the Medicaid Act and is the product of arbitrary
and capricious reasoning. See 5 U.S.C. § 706(2)(A), (C).
The district court entered summary judgment for the
plaintiffs, holding that the Rule “is inconsistent with
the plain language of the Medicaid Act,” which “clearly
indicates which payments can be subtracted from the
total costs incurred during the year by hospitals” and
“nowhere mentions subtracting other third-party payments made on behalf of Medicaid-eligible patients
from the total costs incurred.” Children’s Hosp. Ass’n
of Tex., 300 F. Supp. 3d at 205, 207. Having held the
2017 Rule invalid under § 706(2)(C) (“ultra vires” prohibition), the district court did not reach the plaintiffs’
§ 706(2)(A) challenge (“arbitrary and capricious” prohibition). Id. at 205. The district court ultimately vacated the 2017 Rule and the Secretary timely appealed.
Id. at 210–11. Our review is de novo. See Ark Initiative
v. Tidwell, 816 F.3d 119, 126–27 (D.C. Cir. 2016).
II.
A.

Analysis

Exceeds Statutory Authority

The plaintiffs ﬁrst challenge the Rule as exceeding
the Secretary’s authority under the Medicaid Act, in
violation of 5 U.S.C. § 706(2)(C). The familiar Chevron
framework guides our review. See Ass’n of Private

8a
Sector Colls. & Univs. v. Duncan, 681 F.3d 427, 441
(D.C. Cir. 2012) (“Appellant’s claims that various provisions of the challenged regulations are ‘in excess of
statutory jurisdiction, authority, or limitations, or
short of statutory right,’ are reviewed under the wellknown Chevron framework.” (citation omitted) (quoting 5 U.S.C. § 706(2)(C))). “Under that framework, we
ask whether the statute is ambiguous and, if so,
whether the agency’s interpretation is reasonable.”
King v. Burwell, ___ U.S. ___, 135 S. Ct. 2480, 2488, 192
L.Ed.2d 483 (2015). “This approach ‘is premised on the
theory that a statute’s ambiguity constitutes an implicit delegation from Congress to the agency to ﬁll in
the statutory gaps.’ ” Id. (quoting FDA v. Brown &
Williamson Tobacco Corp., 529 U.S. 120, 159, 120 S.Ct.
1291, 146 L.Ed.2d 121 (2000)). Because the delegation
at issue here is express rather than implied, see 42
U.S.C. § 1396r-4(g)(1)(A) (“[T]he costs incurred during
the year of furnishing hospital services (as determined
by the Secretary . . . ) . . . .” (emphasis added)); see also
Transitional Hosps. Corp. of La. v. Shalala, 222 F.3d
1019, 1025 (D.C. Cir. 2000) (“as determined by the Secretary” is “express delegation”), we have no need to
search for statutory ambiguity. We skip straight to
asking whether the Rule is reasonable. See Chevron,
U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837,
843–44, 104 S.Ct. 2778, 81 L.Ed.2d 694 (1984) (“If
Congress has explicitly left a gap for the agency to
ﬁll, there is an express delegation of authority to the
agency to elucidate a speciﬁc provision of the statute
by regulation. Such legislative regulations are given
controlling weight unless they are arbitrary, capricious,

9a
or manifestly contrary to the statute.”); see also
Transitional Hosps. Corp. of La., 222 F.3d at 1025 (if
delegation is express “we are bound to uphold [the Secretary’s] determination as long as she exercises [her]
discretion in a reasonable way”).
The plaintiffs offer four principal reasons the statute does not grant the Secretary authority to require
that payments by Medicare and private insurers be
considered in calculating a hospital’s “costs incurred.”
First, the statute exclusively speciﬁes which payments
can be considered. Second, the Rule renders superﬂuous the statute’s speciﬁcation that certain payments
must be considered. Third, the Congress required consideration of third-party payments in a different statutory provision but not in the relevant provision.
Fourth, the statute plainly distinguishes costs and
payments. We reject all four arguments.1
First, we disagree with the plaintiffs’ argument
that the statute exclusively speciﬁes which payments
can be considered in calculating “costs incurred.” See
Plaintiffs’ Br. at 58; Children’s Hosp. Ass’n of Tex., 300
F. Supp. 3d at 207 (“On its face, the statute clearly indicates which payments can be subtracted from the total costs incurred during the year by hospitals: (1)
‘payments under this subchapter,’ i.e., payments
made by Medicaid; and (2) payments made by uninsured patients. The statute nowhere mentions subtracting other third-party payments made on behalf of
1

We have also considered and reject the plaintiffs’ other arguments.

10a
Medicaid-eligible patients from the total costs incurred.”). Although the statute establishes that payments by Medicaid and the uninsured must be
considered, it nowhere states that those are the only
payments that may be considered. To conclude otherwise, we would have to rely on the interpretive canon
expressio unius est exclusio alterius, which means “expressing one item of [an] associated group or series excludes another left unmentioned.” Chevron U.S.A. Inc.
v. Echazabal, 536 U.S. 73, 80, 122 S.Ct. 2045, 153
L.Ed.2d 82 (2002) (alteration in original) (quoting
United States v. Vonn, 535 U.S. 55, 65, 122 S.Ct. 1043,
152 L.Ed.2d 90 (2002)). But that canon has been called
a “feeble helper in an administrative setting.” Adirondack Med. Ctr. v. Sebelius, 740 F.3d 692, 697 (D.C. Cir.
2014) (quoting Cheney R. Co. v. ICC, 902 F.2d 66, 69
(C.A.D.C. 1990)). And, in any setting, it “applies only
when ‘circumstances support[ ] a sensible inference
that the term left out must have been meant to be excluded.’ ” N.L.R.B. v. SW Gen., Inc., ___ U.S. ___, 137
S. Ct. 929, 940, 197 L.Ed.2d 263 (2017) (quoting Echazabal, 536 U.S. at 81, 122 S.Ct. 2045); see also Barnhart v. Peabody Coal Co., 537 U.S. 149, 168, 123 S.Ct.
748, 154 L.Ed.2d 653 (2003) (“[W]e do not read the
enumeration of one . . . to exclude the other unless it
is fair to suppose that Congress considered the unnamed possibility and meant to say no to it.”). There
is reason to believe the Congress did not intend to exclude Medicare and private insurance payments from
consideration. Indeed, the parties agree that the most
common sources of payment for treating Medicaideligible and uninsured individuals are Medicaid and

11a
the uninsured. The Congress may have wanted to ensure that the most common sources of payment must
be considered but at the same time allow the Secretary
to decide whether less-common sources of payment
should be as well. Especially in light of this plausible
alternative explanation, we will not rely on the expressio unius canon to ﬁnd that the statute exclusively
speciﬁes which payments can be considered in calculating “costs incurred.” See Indep. Ins. Agents of Am.,
Inc. v. Hawke, 211 F.3d 638, 644 (D.C. Cir. 2000) (“[I]f
there are other reasonable explanations for an omission in a statute, expressio unius may not be a useful
tool.”).
Second, we disagree with the plaintiffs’ argument
that the Rule renders superﬂuous the statute’s speciﬁcation that payments by Medicaid and the uninsured
must be considered. See Plaintiffs’ Br. 41–42; Children’s Hosp. Ass’n of Tex., 300 F. Supp. 3d at 207 (“To
allow the Secretary to redeﬁne ‘costs’ to net out a third
category of payments—i.e., ‘third-party payments, including but not limited to, payments by Medicare and
private insurance’ . . .—would ‘render the Congressional deﬁnition of payments in the very same clause
superﬂuous.’ ” (quoting Children’s Hosp. of the King’s
Daughters, Inc. v. Price, 258 F. Supp. 3d 672, 687 (E.D.
Va. 2017))); id. (“[D]efendants’ interpretation of the
statute would render portions of the statutory language superﬂuous.”). The statute’s speciﬁcation that
two forms of payment must be considered removes the
Secretary’s discretion as to those two forms of payment. But it does nothing to disturb the Secretary’s

12a
discretion as to other forms of payment, which may be
considered. See Tenn. Hosp. Ass’n, 908 F.3d at 1038
(“[T]he fact that certain payments must be deducted
from costs does not mean that other payments cannot
be.”); N.H. Hosp. Ass’n, 887 F.3d at 66 (“Congress identiﬁed two speciﬁc sources of payment that must be offset against total costs, but otherwise simply stated
that ‘costs incurred’ are ‘as determined by the Secretary.’ ”).
Third, we reject the plaintiffs’ argument that we
should infer from the Congress’s requiring consideration of third party payments under 42 U.S.C. § 1396r4(g)(2)(A)—a provision that, before 1995, allowed
certain hospitals to receive payments that exceeded
their uncompensated costs—that it meant to prohibit
consideration of third party payments under § 1396r4(g)(1)(A). Plaintiffs’ Br. 34–35. This argument is
based on the so-called “Russello presumption—that
the presence of a phrase in one provision and its absence in another reveals Congress’ design.” City of
Columbus v. Ours Garage & Wrecker Serv., Inc., 536
U.S. 424, 435–36, 122 S.Ct. 2226, 153 L.Ed.2d 430
(2002) (citing Russello v. United States, 464 U.S. 16,
104 S.Ct. 296, 78 L.Ed.2d 17 (1983)). But that presumption “grows weaker with each difference in the
formulation of the provisions under inspection.” Id. at
436, 122 S.Ct. 2226. Because sections (g)(1)(A) and
(g)(2)(A) are fundamentally different, we ﬁnd the
plaintiffs’ argument unpersuasive. See Tenn. Hosp.
Ass’n, 908 F.3d at 1039 (“There is no tension, however,
in Congress requiring third-party payment deductions

13a
in subsection (g)(2)(A) and allowing third-party payment deductions in subsection (g)(1)(A). The DSH payments provided for in (g)(2)(A) are above and beyond
those mandated by (g)(1)(A); it therefore makes sense
for Congress to impose a hard limit on the ceiling of
(g)(2)(A) funds—i.e., no more than 200% of the costs
of serving Medicaid-eligible patients, less payments
from Medicaid, uninsured patients, and ‘third party
payors’—while giving CMS more discretion to calibrate the appropriate cap on the ‘standard’ DSH payments discussed in (g)(1)(A).”).
Fourth, we disagree with the plaintiffs’ argument
that the statute plainly distinguishes between costs
and payments such that payments can never be considered in calculating “costs incurred.” See Plaintiffs’
Br. at 26, 30, 33, 40, 57. The statute establishes that a
hospital’s DSH payment cannot exceed its “costs incurred during the year of furnishing hospital services
(as determined by the Secretary and net of payments
under this subchapter, other than under this section,
and by uninsured patients).” 42 U.S.C. § 1396r4(g)(1)(A). Both of the parenthetical’s adjoining phrases
modify “costs incurred”—that is, “costs incurred” are
both “as determined by the Secretary” and “net of payments under [Medicaid] and by uninsured patients.”
Id. In other words, the statute requires that some payments be considered in calculating a hospital’s “costs
incurred.” The argument that the statute separates
costs and payments therefore ﬂies in the teeth of the
statutory text.

14a
Contrary to the plaintiffs’ contention, we believe
the 2017 Rule is consistent with the statute’s context
and purpose, both of which suggest DSH payments are
meant to assist those hospitals that need them most by
covering only those costs for which DSH hospitals are
in fact uncompensated. See 42 U.S.C. § 1396r-4(g)(1)
(heading of provision at issue: “Amount of adjustment
subject to uncompensated costs”);2 42 U.S.C. § 1396r4(j)(2)(C) (requiring states to certify that “[o]nly the
uncompensated care costs of providing inpatient hospital and outpatient hospital services to individuals
described in [(g)(1)(A)] are included in the calculation
of the hospital-speciﬁc limits.”); H.R. Rep. No. 103-111,
at 211 (in enacting DSH payment limit, Congress
noted “some States have made DSH payment[s] . . . to
State psychiatric or university hospitals in amounts
that exceed the net costs, and in some instances the
total costs, of operating the facilities”); Tenn. Hosp.
Ass’n, 908 F.3d at 1040 (“essence” of Congressional concern in enacting statute was “that hospitals were double dipping by collecting DSH payments to cover costs
that had already been reimbursed”). By requiring the
inclusion of payments by Medicare and private insurers, the 2017 Rule ensures that DSH payments will go
to hospitals that have been compensated least and are
thus most in need. Because the 2017 Rule is consistent
with the statute, it does not violate § 706(2)(C).

2

Headings, although “not commanding,” “supply clues”
about Congressional intent. Yates v. United States, 574 U.S. 528,
135 S. Ct. 1074, 1083, 191 L.Ed.2d 64 (2015).

15a
B.

Arbitrary and Capricious

The plaintiffs next challenge the 2017 Rule as the
product of arbitrary and capricious reasoning, in violation of 5 U.S.C. § 706(2)(A). A reviewing court “shall
. . . hold unlawful and set aside agency action, ﬁndings,
and conclusions found to be . . . arbitrary, capricious,
an abuse of discretion, or otherwise not in accordance
with law.” 5 U.S.C. § 706(2)(A). An agency rulemaking
is arbitrary and capricious “if the agency has relied on
factors which Congress has not intended it to consider,
entirely failed to consider an important aspect of the
problem, offered an explanation for its decision that
runs counter to the evidence before the agency, or is so
implausible that it could not be ascribed to a difference
in view or the product of agency expertise.” Motor
Vehicle Mfrs. Ass’n of U.S. v. State Farm Mut. Auto. Ins.
Co., 463 U.S. 29, 43, 103 S.Ct. 2856, 77 L.Ed.2d 443
(1983).
The plaintiffs ﬁrst contend that “CMS has never
acknowledged, let alone justiﬁed, its new Rule’s departure from the 2008 rule.” Plaintiffs’ Br. 27–28. We
disagree. “Agencies are free to change their existing
policies as long as they provide a reasoned explanation
for the change.” Encino Motorcars, LLC v. Navarro, ___
U.S. ___, 136 S. Ct. 2117, 2125, 195 L.Ed.2d 382 (2016).
An agency need not provide a more detailed justiﬁcation for a changed policy than it would for a brand-new
policy. Id. But it must provide “a reasoned explanation
. . . for disregarding facts and circumstances that underlay or were engendered by the prior policy.” Id. at
2126 (quoting F.C.C. v. Fox Television Stations, Inc., 556

16a
U.S. 502, 516, 129 S.Ct. 1800, 173 L.Ed.2d 738 (2009)).
An “unexplained inconsistency” with an earlier position renders a changed policy arbitrary and capricious.
Id. (quoting Nat. Cable & Telecomm. Ass’n v. Brand X
Internet Servs., 545 U.S. 967, 981, 125 S.Ct. 2688, 162
L.Ed.2d 820 (2005)).
There is no unexplained inconsistency with an
earlier position here. To be clear, we agree with the
plaintiffs that the 2017 Rule and the 2008 Rule establish different policies.3 But it makes no difference.
CMS explained why the statute’s purposes are better
fulﬁlled by a policy that requires consideration of payments by Medicare and private insurers (the 2017
Rule) than one that does not (the 2008 Rule, as we interpret it):
In light of the statutory requirement limiting
DSH payments on a hospital-speciﬁc basis to
uncompensated care costs, it is inconsistent
with the statute to assist hospitals with costs
that have already been compensated by third
3

The Secretary maintains that the 2017 Rule is consistent
with the 2008 Rule and so does not establish a new policy. That
argument has been rejected by four courts of appeals, all of which
found the 2010 FAQs procedurally invalid because the policy established therein, which is the same policy established by the
2017 Rule, marked a departure from the policy established by the
2008 Rule without notice and an opportunity for public comment.
See Tenn. Hosp. Ass’n, 908 F.3d at 1043 (“As three circuit courts
and several district courts have now held, the payment-deduction
policy elucidated in the FAQs and hinted at in the preamble to
the 2008 rule seeks to amend, rather than merely clarify, the 2008
regulations.” (citing Children’s Health Care, 900 F.3d at 1026–
27; Children’s Hosp. of the King’s Daughters, 896 F.3d at 623;
N.H. Hosp. Ass’n, 887 F.3d at 74)). We agree with our sister circuits.

17a
party payments. [The 2017] rule is designed
to reiterate the policy and make explicit within
the terms of the regulation that all costs and
payments associated with dual eligible and individuals with a source of third party coverage
must be included in calculating the hospitalspecific DSH limit. This policy is necessary to
ensure that only actual uncompensated care
costs are included in the Medicaid hospitalspecific DSH limit. And, because state DSH
payments are limited to an annual federal allotment, this policy is also necessary to ensure
that limited DSH resources are allocated to
hospitals that have a net financial shortfall in
serving Medicaid patients.
82 Fed. Reg. at 16,117. This explanation is more than
sufﬁcient to survive review under § 706(2)(A).
The plaintiffs also claim that the Secretary has
not tied the 2017 Rule to the administrative record.
According to their reading, the record shows that CMS
reduces DSH payments to the plaintiff hospitals when
it considers private insurance payments, notwithstanding “they have among the highest Medicaid inpatient utilization rates in their respective states and the
highest net ﬁnancial shortfalls in serving Medicaid patients.” Plaintiffs Br. 65. The plaintiffs claim this outcome is inconsistent with the purpose of the 2017 Rule,
which is “to ensure that limited DSH resources are allocated to hospitals that have a net ﬁnancial shortfall
in serving Medicaid patients.” 82 Fed. Reg. at 16,117.
Their argument is doubly ﬂawed. For starters,
“Medicaid inpatient utilization rates” are not mentioned

18a
in § 1396r-4(g)(1)(A). See 42 U.S.C. § 1396r-4(g)(1)(A).
More importantly, the plaintiffs misstate which hospitals suffer a “net ﬁnancial shortfall.” Programs and
services a hospital provides that are not paid for by
Medicaid are not relevant to the shortfall calculation.
See 42 U.S.C. § 1396r-4(j)(2)(C) (“Only the uncompensated care costs of providing inpatient hospital and
outpatient hospital services to individuals described in
paragraph [(g)(1)(A)] are included in the calculation of
the hospital-speciﬁc limits under such subsection.”).
Indeed, the statute does not consider a hospital’s actual costs; it considers only those costs that Medicaid
pays for. See 82 Fed. Reg. at 16,118 (“Ancillary programs and services that hospitals provide to patients
may be laudable, but they are not paid for by Medicaid
because they are not costs associated with furnishing
inpatient and outpatient hospital services.”). Calculating “net ﬁnancial shortfall” using only those costs that
Medicaid pays for, no hospital that suffers a “net ﬁnancial shortfall” will be denied a DSH payment. Thus, we
disagree with the plaintiffs’ argument that the Secretary has failed to tie the Rule to the record. Like their
§ 706(2)(C) challenge, their § 706(2)(A) challenge fails.
For the foregoing reasons, we reverse the judgment of the district court, reinstate the 2017 Rule and
remand the case for further proceedings consistent
with this opinion.
So ordered.

19a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
)
)
)
)
)
)
)
)
)
) Civil Action No.
) 17-844 (EGS)
)
Plaintiffs,
)
)
v.
)
THOMAS E. PRICE, in his
)
ofﬁcial capacity, Secretary of
)
Health and Human Services;
)
SEEMA VERMA, in her ofﬁcial )
capacity, Administrator of the )
Centers for Medicare and
)
Medicaid Services; and
)
CENTERS FOR MEDICARE
)
AND MEDICAID SERVICES, )
)
Defendants.
CHILDREN’S HOSPITAL
ASSOCIATION OF TEXAS;
CHILDREN’S HEALTH CARE
d/b/a CHILDREN’S HOSPITAL
AND CLINICS OF
MINNESOTA; GILLETTE
CHILDREN’S SPECIALTY
HEALTHCARE; CHILDREN’S
HOSPITAL OF THE KING’S
DAUGHTERS, INC.; and
SEATTLE CHILDREN’S
HOSPITAL,

20a
ORDER
(Filed Mar, 2, 2018)
Upon consideration of plaintiffs’ motion for
summary judgment, defendants’ motion to strike, defendants’ cross-motion for summary judgment, the
memoranda in support and opposition to these motions, the arguments made by the parties at the
hearing on August 1, 2017, the portions of the administrative record submitted by the parties, and for the
reasons that will be explained fully in a forthcoming
Memorandum Opinion, it is hereby
ORDERED that the defendants’ motion to strike,
ECF No. 14, is GRANTED and the exhibits located at
ECF Nos. 12–3, 12–5, 12–7, 12–12, 12–24, 12–26 to 12–
28, and 12–30 to 12–38 are stricken from the record;
and it is
FURTHER ORDERED that plaintiffs’ motion
for summary judgment, ECF No. 12, is GRANTED;
and it is
FURTHER ORDERED that defendants’ crossmotion for summary judgment, ECF No. 15, is DENIED; and it is
FURTHER ORDERED that plaintiffs’ motion
for a preliminary injunction, ECF No. 8, is DENIED
as moot; and it is
FURTHER ORDERED that the ﬁnal rule, Medicaid Program: Disproportionate Share Hospital Payments – Treatment of Third Party Payers in

21a
Calculating Uncompensated Care Costs, which is published at 82 Fed. Reg. 16114–02, 16117 is hereby VACATED; and it is
FURTHER ORDERED that plaintiffs’ motion
for a hearing, ECF No. 32, is DENIED as moot.
Upon posting of the Memorandum Opinion, this
Order will be ﬁnal pursuant to Federal Rule of Civil
Procedure 54.
SO ORDERED.
Signed:

Emmet G. Sullivan
United States District Judge
March 2, 2018

22a
APPENDIX C
CHILDREN’S HOSPITAL ASSOCIATION OF TEXAS;
Children’s Health Care d/b/a Children’s Hospital and Clinics of Minnesota; Gillette Children’s
Specialty Healthcare; Children’s Hospital of
the King’s Daughters, Inc.; and Seattle Children’s Hospital, Plaintiffs,
v.
Alex AZAR, in his ofﬁcial capacity, Secretary of
Health and Human Services; Seema Verma,
in her ofﬁcial capacity, Administrator of the
Centers for Medicare and Medicaid Services;
and Centers for Medicare and Medicaid Services,1 Defendants.
Civil Action No. 17-844 (EGS)
United States District Court,
District of Columbia.
Signed 03/06/2018
Bridget Springer McCabe, Baker & Hostetler LLP, New
York, NY Christopher H. Marraro, Baker & Hostetler
LLP, Geraldine E. Edens, Morgan, Lewis & Bockius
LLP, Washington, DC, Susan Feigin Harris, Morgan,
Lewis & Bockius LLP, Houston, TX, for Plaintiffs.
Steven A. Myers, James C. Luh, U.S. Department of
Justice, Washington, DC, for Defendants.
1

Pursuant to Federal Rule of Civil Procedure 25(d), the Court
substitutes as defendant the Secretary of Health and Human Services, Alex Azar, for former Secretary of Health and Human Services, Thomas E. Price.

23a
MEMORANDUM OPINION
Emmet G. Sullivan, United States District Judge
Medicaid is a federal program that helps to cover
the costs of providing medical care to qualiﬁed individuals. Some hospitals treat signiﬁcantly higher percentages of Medicaid-eligible patients than others.
Because Medicaid does not generally provide the same
level of reimbursement as other types of insurance
coverage, such hospitals are often at a ﬁnancial disadvantage. To rectify this disadvantage, and thereby encourage hospitals to serve Medicaid-eligible patients,
Congress has provided for supplemental Medicaid payments to such hospitals. The supplemental payments
are subject to limits to ensure that no hospital receives
payments that would result in a proﬁt, rather than covering Medicaid-related costs to rectify the disadvantage. This case concerns the method of calculating
the limit of these supplemental payments.
Speciﬁcally, this lawsuit challenges a ﬁnal rule
that deﬁnes how “costs” are to be calculated for purposes of determining the limit on the amount of the
supplemental payment a hospital serving a disproportionate share of Medicaid-eligible individuals is entitled to receive. See Medicaid Program: Disproportionate Share Hospital Payments—Treatment of
Third Party Payers in Calculating Uncompensated
Care Costs, 82 Fed. Reg. 16114-02, 16117 (Apr. 3, 2017)
(“Final Rule”). Defendants—the Secretary of Health
and Human Services (“the Secretary”), Centers for
Medicare and Medicaid Services (“CMS”), and the

24a
CMS Administrator—claim that the Medicaid Act permits them to deﬁne “costs” in the Final Rule as “costs
net of third-party payments, including, but not limited
to, payments by Medicare and private insurance.” 42
C.F.R. § 447.299(c)(10)(i). Plaintiffs—one children’s
hospital association, whose members are eight freestanding children’s hospitals in the state of Texas, and
four other free-standing children’s hospitals located in
Minnesota, Virginia, and Washington—ask the Court
to vacate the Final Rule as contrary to the plain language of the Medicaid Act and as arbitrary and capricious under the Administrative Procedures Act.
Pending before the Court are plaintiffs’ combined
motion for a preliminary injunction and for summary
judgment, defendants’ motion to strike exhibits supporting plaintiffs’ motion for summary judgment, defendants’ motion for summary judgment, and plaintiffs’
motion for a status hearing. Upon consideration of the
parties’ memoranda, the parties’ arguments at the motions hearing, the administrative record, the applicable law, and for the following reasons, the Court grants
plaintiffs’ motion for summary judgment and vacates
the Final Rule. The Court further grants defendants’
motion to strike, denies defendants’ motion for summary judgment, denies plaintiffs’ motion for a preliminary injunction, and denies plaintiffs’ motion for a
status hearing.

25a
I.

BACKGROUND
A. The Medicaid Act

Medicaid is a “joint state-federal program in which
healthcare providers serve poor or disabled patients
and submit claims for government reimbursement.”
Universal Health Servs., Inc. v. United States, ___ U.S.
___, 136 S.Ct. 1989, 1996-97, 195 L.Ed.2d 348 (2016).
In addition to serving low-income individuals, Medicaid also provides beneﬁts to children with certain serious illnesses, without regard to family income. See,
e.g., 42 U.S.C. § 1396a(a)(10)(A)(i)(II) (children are eligible for Medicaid if they are eligible for Supplemental
Security Income (“SSI”)); 20 C.F.R. § 416.934(j) (children
born weighing less than 1,200 grams are presumptively eligible for SSI).
To encourage states to participate in Medicaid,
“[f ]ederal and state governments jointly share the
cost.” Va. Dep’t of Med. Assistance Servs. v. Johnson,
609 F.Supp.2d 1, 2 (D.D.C. 2009). Participating states
administer their own program “pursuant to a state
Medicaid plan which must be reviewed and approved
by the Secretary of HHS.” Id.; see also 42 U.S.C. § 1396a.
Once the Secretary or the Secretary’s designee approves a state plan, the state receives federal ﬁnancial
participation to cover part of the costs of its Medicaid
program. 42 U.S.C. § 1396b(a)(1). If a state fails to
comply with the statutory or regulatory requirements
governing Medicaid, the federal government may recoup federal funds from the state. See id. §§ 1316(a),
(c)-(e).

26a
B. Disproportionate Share Hospitals
In 1981, facing “greater costs . . . associated with
the treatment of indigent patients,” D.C. Hosp. Ass’n v.
District of Columbia, 224 F.3d 776, 777 (D.C. Cir. 2000),
Congress amended Medicaid to require states to ensure that payments to hospitals “take into account . . .
the situation of hospitals which serve a disproportionate number of low-income patients with special needs,”
42 U.S.C. § 1396a(13)(A)(iv). This amendment reﬂected “Congress’s concern that [M]edicaid recipients
have reasonable access to medical services and that
hospitals treating a disproportionate share of poor people receive adequate support from [M]edicaid.” W. Va.
Univ. Hosps. v. Casey, 885 F.2d 11, 23 (3d Cir. 1989).
These payments do not compensate a hospital for
providing a particular service to a particular patient;
rather, they seek to rectify in part any deﬁcit the hospital may face solely because it treats more Medicaideligible patients than most. See Johnson, 609 F.Supp.2d
at 3 (“The intent was to stabilize the hospitals ﬁnancially and preserve access to health care services for
eligible low-income patients.”). Accordingly, the amendment created “payment adjustment[s]” for qualifying
hospitals. See 42 U.S.C. § 1396r-4(c). Such payments
are available to any hospital that treats a disproportionate share of Medicaid patients (a disproportionateshare hospital or “DSH”). See id. § 1396r-4(b). In particular, Congress “deemed” hospitals to be DSH hospitals if “the hospital’s medicaid inpatient utilization
rate . . . is at least one standard deviation above the
mean medicaid inpatient utilization rate for hospitals

27a
receiving medicaid payments in the State” or if “the
hospital’s low-income utilization rate . . . exceeds 25
percent.” Id. § 1396r-4(b)(1).
In 1993, the Medicaid program was amended to
limit DSH payments on a hospital-speciﬁc basis to assuage concerns that some hospitals were receiving
DSH payments in excess of “the net costs, and in some
instances the total costs, of operating the facilities.”
H.R. Rep. No. 103-111, at 211 (1993), reprinted in 1993
U.S.C.C.A.N. 278, 538. Congress was particularly concerned by reports that some states were “making DSH
payment adjustments to hospitals that d[id] not provide inpatient services to Medicaid beneﬁciaries” at all.
Id. Because the very purpose of DSH payments was
“to assist those facilities with high volumes of Medicaid patients,” Congress wanted to ensure that payments were directed to hospitals that were “unlikely to
have large numbers of privately insured patients
through which to offset their operating losses on the
uninsured.” Id. To mitigate these concerns, the
amendment provided that a DSH payment may not exceed:
[T]he costs incurred during the year of furnishing hospital services (as determined by
the Secretary and net of payments under this
subchapter, other than under this section, and
by uninsured patients) by the hospital to individuals who either are eligible for medical
assistance under the State plan or have no
health insurance (or other source of third
party coverage) for services provided during
the year.

28a
42 U.S.C. § 1396r-4(g)(1)(A). Thus, for Medicaid patients,
the Medicaid Act sets the hospital-specific limit (“HSL”)
for DSH payments as “the costs incurred during the
year of furnishing hospital services” to Medicaid-eligible
individuals “as determined by the Secretary and net of
payments” under the Medicaid Act (referred to as the
“Medicaid shortfall”). Id.
C. Auditing and Reporting Requirements
To ensure that DSH payments comply with statutory requirements, the Medicaid Act was again
amended in 2003 to require that each state provide an
annual report and an audit of its DSH program. See
id. § 1396r-4(j). The audit must conﬁrm, among other
things, that:
(C) Only the uncompensated care costs of
providing inpatient hospital and outpatient
hospital services to individuals described in
[Section 1396r-4(g)(1)(A)] . . . are included in
the calculation of the hospital-speciﬁc limits[;]
(D) The State included all payments under
this subchapter, including supplemental payments, in the calculation of such hospital-speciﬁc limits[; and]
(E) The State has separately documented
and retained a record of all of its costs under
this subchapter, claimed expenditures under
this subchapter, uninsured costs in determining payment adjustments under this section, and any payments made on behalf of the

29a
uninsured from payment adjustments under
this section.
Id. § 1396r-4(j)(2). Overpayments must be recouped by
the state within one year of their discovery or the federal government may reduce its future contribution to
that state. See id. § 1396b(d)(2)(C)-(D).
In 2005, CMS issued a Notice of Proposed Rulemaking in order to implement the 2003 amendment’s
auditing and reporting requirements. See 70 Fed. Reg.
50262 (Aug. 26, 2005). A ﬁnal rule was issued on December 19, 2008. See 73 Fed. Reg. 77904 (Dec. 19, 2008)
(“2008 Rule”). The 2008 Rule made two changes to the
applicable provisions of the Code of Federal Regulations.
First, the 2008 Rule required that states begin to
submit, on an annual basis, certain information “for
each DSH hospital to which the State made a DSH
payment in order to permit veriﬁcation of the appropriateness of such payments.” Id. at 77950. One such
piece of information is the hospital’s “total annual uncompensated care costs,” which the rule deﬁned as an
enumerated set of “costs” less an enumerated set of
“payments”:
The total annual uncompensated care cost
equals the total cost of care for furnishing inpatient hospital and outpatient hospital services to Medicaid eligible individuals and to
individuals with no source of third party coverage for the hospital services they receive
less the sum of regular Medicaid [fee-forservice] rate payments, Medicaid managed

30a
care organization payments, supplemental/
enhance Medicaid payments, uninsured revenues, and Section 1011 payments for inpatient and outpatient hospital services.
Id. at 77950; 42 C.F.R. § 447.299(c)(16). The regulation
also deﬁned different types of costs and payments. See
42 C.F.R. § 447.299(c)(10) (deﬁning total costs for Medicaid-eligible patients as “[t]he total annual costs incurred by each hospital for furnishing inpatient
hospital and outpatient hospital services to Medicaid
eligible individuals”); id. § 447.299(c)(14) (deﬁning total costs for uninsured individuals as “the total costs
incurred for furnishing . . . services to individuals with
no source of third party coverage for the hospital services they receive”); id. §§ 447.299(c)(6)-(9) (defining the
various Medicaid-related payments); id. § 447.299(c)(12)
(deﬁning total uninsured revenues as “[t]otal annual
payments received by the hospital by or on behalf of
individuals with no source of third party coverage for
. . . services they receive,” exclusive of “payments made
by a State or units of local government, for services furnished to indigent patients”); id. § 447.299(c)(13) (describing “Section 1011 payments,” which are “Federal
Section 1011 payments for . . . services provided to Section 1011 eligible aliens with no source of third party
coverage”).
Second, the 2008 Rule stated that the annual audit “must verify,” among other things, that:
Each hospital that qualiﬁes for a DSH payment in the State is allowed to retain that
payment so that the payment is available to

31a
offset its uncompensated care costs for furnishing inpatient hospital and outpatient hospital services during the Medicaid State plan
rate year to Medicaid eligible individuals and
individuals with no source of third party coverage for the services in order to reﬂect the total amount of claimed DSH expenditures.
...
Only uncompensated care costs of furnishing
inpatient and outpatient hospital services to
Medicaid eligible individuals and individuals
with no third party coverage for the inpatient
and outpatient hospital services they received
as described in Section 1923(g)(1)(A) of the
Act are eligible for inclusion in the calculation
of the hospital-speciﬁc disproportionate share
. . . payment limit.
73 Fed. Reg. at 77951; 42 C.F.R. § 455.304(d). To ease
the move to the new audit and reporting regime and to
avoid subjecting any state to “immediate penalties that
would result in the loss of Federal matching dollars,”
CMS provided for a six-year-long transition. 73 Fed.
Reg. at 77906. Accordingly, any audits “from Medicaid
State plan rate year 2005 through 2010” would be “used
only for the purpose of determining prospective hospital-speciﬁc cost limits and the actual DSH payments
associated with a particular year,” not for “requiring
recovery of any overpayments.” Id. For payments
made for all years after 2011, DSH overpayments
would be recovered by the state, and the federal share
would be returned to the federal government unless

32a
the excess payments “are redistributed by the State to
other qualifying hospitals.” Id.
D. Frequently Asked Questions (“FAQs”) 33
and 34
On January 10, 2010, CMS posted answers to
FAQs regarding the audit and reporting requirements.
See A.R. 730-771, Additional Information on the DSH
Reporting and Audit Requirements, https://www.medicaid.
gov/medicaid/financing-andreimbursement/downloads/
part-1-additional-info-on-dsh-reporting-and-auditing.pdf.
FAQ 33 asked whether “days, costs, and revenues associated with patients that have both Medicaid and
private insurance coverage” would be included in the
calculation of the DSH limit. A.R. 747, id. at 18. In
response, CMS explained that private-insurance payments made on behalf of Medicaid-eligible patients
should be included in the calculation of the hospitalspeciﬁc DSH limit.” Id. Likewise, FAQ 34 asked “[u]nder what circumstances” would Medicare payments on
behalf of patients dually eligible for both Medicare and
Medicaid be included in the uncompensated care costs.
Id. CMS explained that hospitals were required “to
take into account” any Medicare payments made on behalf of dually-eligible individuals in calculating a hospital’s Medicaid DSH payment. Id.
FAQs 33 and 34 were subsequently challenged in
multiple courts as an unlawful amendment of the 2008
Final Rule and as inconsistent with the Medicaid Act.
Each of the six federal courts to have evaluated FAQs

33a
33 and 34 have entered either a preliminary or permanent injunction prohibiting defendants from reducing
a hospital’s DSH payment through enforcement of the
FAQs. See, e.g., Texas Children’s Hosp. v. Burwell, 76
F.Supp.3d 224 (D.D.C. 2014) (granting preliminary
injunction prohibiting the enforcement of FAQ 33);
New Hampshire Hosp. Ass’n v. Burwell, No. 15-cv-460,
2017 WL 822094 (D.N.H. Mar. 2, 2017) (permanently
enjoining defendants from enforcing FAQs 33 and 34);
Children’s Hosp. of the King’s Daughters, Inc. v. Price,
258 F.Supp.3d 672 (E.D. Va. 2017) (granting preliminary injunction prohibiting the enforcement of FAQ 33
against plaintiff ); Tennessee Hosp. Ass’n v. Price, No.
16-cv-3263, 2017 WL 2703540 (M.D. Tenn. June 21,
2017) (granting plaintiffs’ summary judgment and enjoining defendants from applying FAQ 33 to plaintiffs’
hospitals); Children’s Health Care v. Centers for Medicare & Medicaid Servs., No. 16-cv-4064, 2017 WL
3668758 (D. Minn. June 26, 2017)(permanently enjoining defendants from enforcing FAQ 33); Missouri Hosp.
Ass’n. v. Hargan, No. 17-cv-4052, 2018 WL 814589 (W.D.
Mo. Feb. 9, 2018) (permanently enjoining enforcement
of the ﬁnal rule).
Each of these courts found the FAQs invalid on
procedural grounds—i.e., that defendants violated the
Administrative Procedure Act (“APA”), 5 U.S.C. § 500
et seq., by failing to properly promulgate the policy embodied in the FAQs in accordance with the notice-andcomment provisions of section 553. Two of these courts
also evaluated whether the FAQs violated section
706(2) of the APA because they conﬂict with the plain

34a
language of the Medicaid Act. See Children’s Hosp. of
the King’s Daughters, 2017 WL 2936801, at *8 (ﬁnding
that the Medicaid statute is “unambiguous” and foreclosed defendants’ interpretation as set forth in FAQ
33); Tennessee Hosp. Ass’n, 2017 WL 2703540, at *8
(“the Court ﬁnds that Defendants’ policies set forth in
the responses to FAQs 33 and 34 violate the APA because they conﬂict with the unambiguous language of
the Medicaid Act”).
E. 2017 Final Rule
On August 15, 2016, defendants published a notice
of proposed rulemaking to address the HSL on DSH
payments. 81 Fed. Reg. 53980, 53981 (Aug. 15, 2016).
Speciﬁcally, defendants explained that the new rule
was intended to “make clearer . . . an existing interpretation”—which was also embodied in FAQs 33 and
34—that “uncompensated care costs include only those
costs for Medicaid eligible individuals that remain after accounting for payments received by hospitals by
or on behalf of Medicaid eligible individuals, including Medicare and other third party payments that
compensate the hospitals for care furnished to such individuals.” Id. (emphasis added). In other words, under the proposed rule, the HSL must be based on the
costs for Medicaid-eligible individuals for which a “hospital has not received payment from any source.” Id.
On April 3, 2017, CMS published the Final Rule
entitled “Medicaid Program: Disproportionate Share
Hospital Payments—Treatment of Third Party Payers

35a
in Calculating Uncompensated Care Costs.” 82 Fed.
Reg. 16114-02, 16117 (Apr. 3, 2017). CMS stated that
it “received 161 timely comments from state Medicaid
agencies, provider associations, providers, and other
interested parties” in response to the proposed rule. 82
Fed Reg. 16114, 16117 (Apr. 3, 2017). Defendants identiﬁed ten general comment areas in which they received multiple comments, along with nine additional
speciﬁc comments that did not ﬁt into any of the general areas, and provided responses to those comments.
Id. at 16117-16120. Many commentators “suggested
that CMS’ interpretation of the hospital-speciﬁc limit”
was “inconsistent with the statutory language” of the
amendment. Id. at 16117. Defendants disagreed, explaining that the statute explicitly gave the Secretary
authority to determine the “costs” of providing services, and therefore the Secretary had “discretion to
take Medicare and other third party payments into account when determining a hospital’s costs for the purpose of calculating Medicaid DSH payments.” Id. at
16117-18.
Other commentators suggested that the proposed
rule should not apply to patients eligible for both Medicaid and another source of insurance (“dual-eligible
patients”) in cases where Medicaid does not actually
pay on behalf of that patient. Id. at 16118. According
to these commentators, application of the proposed
rule to hospitals serving a high number of dual-eligible
patients would render those hospitals “ineligible for
DSH funds, even though they have substantial losses
for Medicaid-paid admissions and for the uninsured.”

36a
Id. In response, defendants pointed out that the statutory language referred to those “eligible for medical
assistance” and did “not condition eligibility on
whether the cost of the service was claimed.” Id. As
such, “all costs and payments associated with Medicaid
eligible individuals must be included in the hospitalspeciﬁc limit calculation, regardless of whether Medicaid made a payment.” Id. Defendants also stated
that the commentators’ belief that, under the proposed rule, a hospital could incur substantial losses for
treating Medicaid-eligible and uninsured individuals
despite receiving a DSH payment was “incorrect.” Id.
Although these hospitals may incur losses for “[a]ncillary programs and services,” any “actual uncompensated care costs for furnishing [inpatient and
outpatient] hospital services” would be eligible to be
covered by DSH payments. The purpose of the rule,
according to defendants, was simply to ensure that a
DSH payment did not constitute “double pay for costs
that ha[d] already been compensated” by, for example,
private insurance or Medicare. Id.
The Final Rule modiﬁes 42 C.F.R. § 447.299(c)(10)
“to make it explicit that ‘costs’ for purposes of calculating hospital-speciﬁc DSH limits are costs net of thirdparty payments received.” Id. Speciﬁcally, the Final
Rule provides:
(10) Total Cost of Care for Medicaid IP/OP
Services. The total annual costs incurred by
each hospital for furnishing inpatient hospital
and outpatient hospital services to Medicaid
eligible individuals. The total annual costs

37a
are determined on a hospital-speciﬁc basis,
not a service-speciﬁc basis. For purposes of
this section, costs—
(i) Are deﬁned as costs net of third-party
payments, including, but not limited to,
payments by Medicare and private insurance.
(ii) Must capture the total burden on the
hospital of treating Medicaid eligible patients
prior to payment by Medicaid. Thus, costs
must be determined in the aggregate and not
by estimating the cost of individual patients.
For example, if a hospital treats two Medicaid
eligible patients at a cost of $2,000 and receives a $500 payment from a third party for
each individual, the total cost to the hospital
for purposes of this section is $1,000, regardless of whether the third party payment received for one patient exceeds the cost of
providing the service to that individual.
Id. at 16122 (emphasis added). The Final Rule became
effective June 2, 2017. Id. at 16115. Defendants note
that, because the Final Rule merely “provid[es] clariﬁcation to existing policy,” there is “no issue of retroactivity, nor a need for a transition period.” Id. at 16118.
The only other federal court to have adjudicated a
challenge to the Final Rule found that it was enacted
in excess of defendants’ statutory authority under
the Medicaid Act. See Missouri Hosp. Ass’n. v. Hargan,
No. 17-cv-4052, 2018 WL 814589, at *10-12 (W.D. Mo.
Feb. 9, 2018). The court held that “42 U.S.C. § 1396r4(g)(1)(A) is unambiguous that the calculation of a

38a
DSH hospital’s HSL does not involve consideration of
private insurance or Medicare payments, and a DSH
hospital’s total uncompensated costs of care for calculating the HSL is reduced only by the total of other
Medicaid program payments.” 2018 WL 814589, at
*12. In so holding, the court found that the context and
legislative history of the statute supported plaintiffs’
reading of the statute that only Medicaid payments
were to be included in the HSL. Id. Based on the language of the statute, its context, and its legislative history, the court concluded that, “[w]hile the Secretary
may be authorized to deﬁne ‘costs,’ ” under the statute,
the Secretary’s “authority stops short of deﬁning ‘payments.’ ” Id.
F. This Lawsuit
The plaintiffs in this case represent twelve not-forproﬁt children’s hospitals located in Texas, Washington, Minnesota, and Virginia. Compl. ¶¶ 13-17, ECF
No. 1. The hospitals are “dedicated to the treatment
and special needs of children and the advancement
of pediatric medicine” and provide care for criticallyill children “regardless of whether their families have
health insurance or ability to pay for their care.” Id.
¶¶ 13-17. As a result, these hospitals each serve a disproportionate number of Medicaid and uninsured patients. See, e.g., id. ¶ 13 (the Children’s Hospital
Association of Texas’ “members have among the highest Medicaid utilization rates of all hospitals in the
state of Texas”); id. ¶ 14 (“Children’s Minnesota is
federally ‘deemed’ a DSH hospital entitled to receive

39a
DSH funding under the Medicaid Act.”); id. ¶ 15 (“Gillette Children’s typically serves the highest proportion
of patients covered by Medicaid in Minnesota.”); id.
¶ 16 (Children’s Hospital of the King’s Daughters “is
federally ‘deemed’ a DSH hospital entitled to receive
DSH funding under the Medicaid Act because it serves
a disproportionate number of Medicaid and uninsured
patients.”).
Plaintiffs ﬁled this lawsuit on May 8, 2017.
Compl., ECF No. 1. On May 15, 2017, plaintiffs ﬁled a
motion for a preliminary injunction requesting the
Court to “enjoin[ ] Defendants—on a nationwide basis—from enforcing, applying, or implementing (or requiring any state to enforce, apply, or implement)” the
Final Rule. Mot. for Prelim. Inj., ECF No. 8. On May
23, 2017, in accordance with the Court’s May 19, 2017
Order, the parties ﬁled a joint status report in which
they agreed that plaintiffs’ motion for a preliminary
injunction could “be combined with the merits and
treated also as a motion for summary judgment.” Joint
Status Report at 2, ECF No. 11. The Court entered an
order consolidating plaintiffs’ motion for a preliminary
injunction with a determination of the merits under
Federal rule of Civil Procedure 65(a)(2) on May 24,
2017. Plaintiffs ﬁled a combined application for a preliminary injunction and summary judgment on June 5,
2017. Pls.’ Combined Mem. in Supp. of Appl. for a Prelim. Inj. and for Summ. J. (“Pls.’ Mem.”), ECF No. 12-1.
On June 16, 2017, in addition to ﬁling their combined
response to plaintiffs’ motion and cross-motion for summary judgment, defendants moved to strike certain

40a
exhibits ﬁled in support of plaintiffs’ motion. Defs.’
Mot. to Strike, ECF No. 14; Defs.’ Mem. in Supp. of Mot.
for Summ. J. and Opp. to Pls.’ Mot. for Prelim. Inj. and
Summ. J. (“Defs.’ Opp.”), ECF No. 15. The parties’
brieﬁng on their cross-motions for summary judgment
and defendants’ motion to strike was complete on July
12, 2017, and the Court held a hearing on the motions
on August 1, 2017. Those motions are now ripe for the
Court’s considerations. Because the Court’s opinion
decides the underlying merits, plaintiffs’ request for a
preliminary injunction is moot.
II.

Defendants’ Motion to Strike

Plaintiffs attach thirty-six exhibits to their “combined application for a preliminary injunction and for
summary judgment,” see ECF Nos. 12-3 to 12-38, seventeen of which were not “presente[ed] to the agency
in the administrative process,” see Defs.’ Mot. Strike at
1, ECF No. 14. These seventeen exhibits consist of
(1) declarations from representatives of each plaintiff,
see ECF Nos. 12-3, 12-5, 12-7, 12-24, 12-26, 12-28, and
12-34; (2) two publications from the Journal of the
American Medical Association (“JAMA”), ECF Nos. 1212 and 12-38; (3) various documents attached to the
Declaration of Robert Simon (“Simon Declaration”)
purporting to explain the relationship between Medicaid cost-reporting principles and inclusion of thirdparty payments in the HSL calculation, see ECF Nos.
12-30, 12-31,12-32, and 12-33; and (4) various documents setting forth facts speciﬁc to certain plaintiffhospitals, see ECF Nos. 12-27, 12-35, 12-36, and 12-37.

41a
Defendants move to strike these seventeen exhibits,
arguing that judicial review under the APA “is limited
to the administrative record, which consists of the materials directly or indirectly considered by the agency
decision-makers at the time they made the challenged
decision.” Defs.’ Mot. Strike at 3, ECF No. 14.
“[I]t is black-letter administrative law that in an
APA case, a reviewing court ‘should have before it neither more nor less information that did the agency
when it made its decision.’ ” Hill Dermaceuticals, Inc.
v. Food & Drug Admin., 709 F.3d 44, 47 (D.C. Cir. 2013)
(quoting Walter O. Boswell Mem’l Hosp. v. Heckler, 749
F.2d 788, 792 (D.C. Cir. 1984)). This is because, under
the APA, the court is conﬁned to reviewing “the whole
record or those parts of it cited by a party,” 5 U.S.C.
§ 706, and the administrative record only includes the
“materials ‘compiled’ by the agency that were ‘before
the agency at the time the decision was made,’ ” James
Madison Ltd. by Hecht v. Ludwig, 82 F.3d 1085, 1095
(D.C. Cir. 1996) (citations omitted).
Accordingly, when, as here, plaintiffs seek to place
before the court additional materials that the agency
did not review in making its decision, a court must exclude such material unless plaintiffs “can demonstrate
unusual circumstances justifying departure from th[e]
general rule.” Am. Wildlands v. Kempthorne, 530 F.3d
991, 1002 (D.C. Cir. 2008) (citation omitted). For example, a court may appropriately consider extra-record
materials: (1) if the agency deliberately or negligently
excluded documents that may have been adverse to its
decision; (2) if background information is needed to

42a
determine whether the agency considered all the relevant factors; and (3) in cases where the agency failed
to explain the administrative action so as to frustrate
judicial review. Id.
Plaintiffs make three arguments as to why the
Court should consider their proffered extra-record materials: (1) the declarations, and certain exhibits attached to them, should be considered because they
support plaintiffs’ request for a preliminary injunction
and establish plaintiffs’ standing, Pls.’ Strike Opp. at
4-7, ECF No. 22; (2) that certain paragraphs of the Simon Declaration and all of the exhibits attached to it
are proper extra-record evidence because they show
that defendants did not adequately explain their decision, id. at 7-9; and (3) one JAMA study is included
merely to support a “statement of fact” that “put[s] into
context the specialized care Plaintiffs provide to Medicaid children” and thus is appropriately before the
Court, id. at 10. The Court considers each argument
in turn.
A. The Court Need Not Consider Extra-Record
Materials To Determine Whether Plaintiffs
Will Suffer Irreparable Harm Or Have
Standing.
Plaintiffs are correct that in APA cases, courts
have considered declarations offered to prove that plaintiffs will suffer “irreparable harm” absent a preliminary injunction. See id. at 4; see also, e.g., Am. Rivers
v. U.S. Army Corps of Eng’rs, 271 F.Supp.2d 230, 247

43a
(D.D.C. 2003) (“the Court concludes that this case fits
squarely within one of our Circuit’s stated exceptions
for allowing consideration of extra-record declarations in administrative review cases—cases involving
preliminary injunctions”). Here, however, plaintiffs
concede that consolidation of their motions for preliminary-injunctive relief and summary judgment under
Federal Rule of Civil Procedure 65 “effectively moots
the Court’s consideration of the preliminary injunctive
factors because the court will enter judgment on the
merits.” Pls.’ Mem. at 2, ECF No. 12-1. Accordingly,
the Court need not determine whether plaintiffs will
suffer “irreparable harm” absent an injunction—and,
therefore, plaintiffs’ extra-record proof of such harm
need not be considered.
Whether plaintiffs may supplement the record in
order to establish standing is a closer question. See,
e.g., Amfac Resorts, L.L.C. v. U.S. Dep’t of the Interior,
282 F.3d 818, 830 (D.C. Cir. 2002) (stating that those
challenging agency action must establish that they
have standing and, in so doing, “[t]hey are not conﬁned
to the administrative record,” but rather, “must support their claim of injury with evidence”); Chesapeake
Climate Action Network v. Export-Import Bank of the
U.S., 78 F.Supp.3d 208, 217 (D.D.C. 2015) (“Although
judicial review of agency action is typically conﬁned
to the administrative record, where there is not sufﬁcient evidence of standing in the record because the
question was not before the agency, plaintiffs may
submit extra-record evidence to establish standing.”).
Notably, although defendants do not contest standing

44a
here—perhaps because this Court previously found
that at least one of the plaintiffs in this case, Seattle
Children’s Hospital, likely did have standing to challenge defendants’ enforcement of FAQ 33, see Texas
Children’s, 76 F.Supp.3d at 238-39—defendants recognize that plaintiffs may be “entitled to make a record
on standing for purposes of further review.” Defs.’ Reply in Supp. Mot. Strike at 3, ECF No. 25. Furthermore, even when no party challenges standing, “federal
courts, being courts of limited jurisdiction, must assure
themselves of jurisdiction over any controversy they
hear.” Noel Canning v. N.L.R.B., 705 F.3d 490, 496
(D.C. Cir. 2013).
Here, given that there is no dispute that plaintiffs
are subject to the Final Rule, the Court ﬁnds that
plaintiffs’ standing is self-evident and therefore the
Court need not consider the declarations attached to
plaintiffs’ motion. See Sierra Club v. E.P.A., 292 F.3d
895, 899-900 (D.C. Cir. 2002) (“In many if not most
cases the petitioner’s standing to seek review of administrative action is self-evident; no evidence outside the
administrative record is necessary for the court to be
sure of it.”); see also Fund For Animals, Inc. v. Norton,
322 F.3d 728, 733 (D.C. Cir. 2003) (confirming that
parties are “not require[d] . . . to ﬁle evidentiary submissions in support of standing in every case”). In particular, when, as here, plaintiffs are the “object of the
[agency] action (or foregone action) at issue . . . there
should be little question that the action or inaction has
caused him injury, and that a judgment preventing or
requiring the action will redress it.” Id. (citation and

45a
internal quotation marks omitted). No party contests
that the Final Rule, if allowed to stand, could “have the
effect of shifting DSH funds from Plaintiffs to other
DSH hospitals within each of their respective states.”
Defs.’ Opp. at 31, ECF No. 15. These recoupment decisions—or, going forward, decisions about how to allocate
DSH funds—by state Medicaid agencies are inextricably intertwined with defendants’ promulgation and enforcement of the Final Rule. See Texas Children’s, 76
F.Supp.3d at 239 (noting that defendants could “revoke
federal ﬁnancial participation” from states that do not
comport with defendants’ view of Medicaid’s requirements) (citing 42 U.S.C. §§ 1316(a), (c)-(e), 1396a, 1396b).
Accordingly, the Court need not consider plaintiffs’
proffered declarations in conducting its analysis of the
Final Rule.2

2

This conclusion is buttressed by the fact that plaintiffs’ declarations appear to address topics that far exceed the standing
inquiry. See, e.g., Declaration of Todd Ostendorf ¶ 5 (“Medicaid
currently reimburses Children’s Minnesota an average of only
$0.65 for every dollar of the cost to provide care to Medicaid
patients.”) (cited at Pls.’ Mem. at 12); Declaration of Stephen
Kimmel ¶ 5 (“Cook Child’s sustains signiﬁcant losses treating
large numbers of Medicaid patients”) (cited at Pls.’ Mem. at 32).
As another court recently found, “plaintiffs may not smuggle in
extra-record evidence relevant to the merits of this APA action by
contending that the evidence pertains to standing.” Hispanic
Affairs Project v. Acosta, 263 F.Supp.3d 160, 176 (D.D.C. 2017). This
Court agrees. See also Watersheds Project v. Salazar, 766
F.Supp.2d 1095, 1104 (D. Mont. 2011) (“The Court believes that
the Declarations containing both standing allegations and the extra-record submission should be stricken in full because standing
is not in dispute and the extra-record submissions are intermixed
with the standing allegations.”).

46a
B. The Esch Exceptions Do Not Apply.
Plaintiffs invoke Esch v. Yeutter, 876 F.2d 976 (D.C.
Cir. 1989), to argue that certain paragraphs of the Simon Declaration and all of the exhibits to that declaration are proper extra-record evidence. Pls.’ Strike
Opp. at 7-9, ECF No. 22. In particular, plaintiffs urge
the Court to consider portions of the Simon Declaration because, during the notice-and-comment process,
CMS dismissed Mr. Simon’s comment “with an explanation that failed to address the issue raised” as to
whether the inclusion of third-party payments in the
calculation of the hospital-speciﬁc limit violates Medicare/Medicaid cost reporting principles. Id. at 8. The
Court of Appeals for the District of Columbia Circuit
(“D.C. Circuit”), however, has “severely limited” the application of Esch to allow such extra-record evidence.
Chamber of Commerce v. NLRB, 118 F.Supp.3d 171,
188 n.12 (D.D.C. 2015). In Hill Dermaceuticals, for example, the D.C. Circuit explained that, at most, Esch
“may be invoked to challenge gross procedural deﬁciencies—such as where the administrative record itself is so deﬁcient as to preclude effective review.”
709 F.3d at 47 (emphases added); see also American
Wildlands v. Kempthorne, 530 F.3d 991, 1002 (D.C. Cir.
2008) (exception only applies when an agency’s failure
to adequately explain its actions “frustrates judicial review”).
Here, plaintiffs offer no evidence that CMS’s decision was so procedurally deﬁcient as to preclude
judicial review. Given that courts have repeatedly held
that an agency’s decision need not “be a model of

47a
analytic precision to survive a challenge,” such evidence would need to be provided to justify consideration of the extra-record evidence. Dickson v. Sec. of
Defense, 68 F.3d 1396, 1404-05 (D.C. Cir. 1995); see also
Camp v. Pitts, 411 U.S. 138, 143, 93 S.Ct. 1241, 36
L.Ed.2d 106 (1973) (rejecting argument that agency
had failed to provide an adequate explanation when
agency had provided a “contemporaneous explanation”
that simply stated that “a new bank was an uneconomic venture in light of the banking services already
available in the surrounding community”; “[t]he explanation may have been curt but it surely indicated the
determinative reason for the ﬁnal action taken”).
C. The Court Declines To Consider The 2016
JAMA Study.
Plaintiffs also contend that the Court should consider a 2016 study published in Pediatrics, a JAMA
publication, because it supports plaintiffs’ argument
that free-standing Children’s hospitals rely heavily
on DSH funding. Pls.’ Opp. at 7, 10, ECF No. 22. Defendants maintain that the Court must strike the article because it was “not presented to the agency in the
course of the rulemaking process.” Defs.’ Mot. Strike
at 5. The Court agrees, and therefore also strikes the
article from the record. See Hispanic Affairs Project v.
Acosta, 263 F.Supp.3d 160, 179 (D.D.C. 2017) (agreeing
that the Court was not permitted to consider “the two
referenced news articles” in an exhibit attached to
plaintiffs’ summary-judgment motion in APA action).

48a
In sum, the Court strikes ECF Nos. 12-3, 12-5, 127, 12-12, 12-24, 12-26 to 12-28, and 12-30 to 12-38 from
the record.
III. Standard of Review
Although “summary judgment is [the] appropriate
procedure” when a party seeks review of an agency action under the APA, the normal standards for summary
judgment set forth in Federal Rule of Civil Procedure
56 do not apply. See Assoc. Builders & Contractors, Inc.
v. Shiu, 30 F.Supp.3d 25, 34 (D.D.C. 2014); Bimini Superfast Operations LLC v. Winkowski, 994 F.Supp.2d
106, 119 (D.D.C. 2014). Instead, the court’s function is
limited to reviewing the administrative record to “determine whether or not as a matter of law the evidence
in the administrative record permitted the agency to
make the decision it did.” Nicopure Labs, LLC v. Food
& Drug Admin., 266 F.Supp.3d 360, 379 (D.D.C. 2017).
In reviewing agency action, the court must be
“thorough and probing, but if the court ﬁnds support
for the agency action, it must step back and refrain
from assessing the wisdom of the decision unless there
has been a ‘clear error of judgment.’ ” Fund for Animals v. Babbitt, 903 F.Supp. 96, 105 (D.D.C. 1995)
(quoting Marsh v. Oregon Natural Res. Council, 490
U.S. 360, 378, 109 S.Ct. 1851, 104 L.Ed.2d 377 (1989)).
In its review, a court should consider “whether the
agency acted within the scope of its legal authority,
whether the agency has explained its decision,
whether the facts on which the agency purports to

49a
have relied have some basis in the record, and whether
the agency considered the relevant factors.” Id.
Under the APA, a reviewing court must set aside
a challenged agency action that is found to be, inter alia, “in excess of statutory jurisdiction, authority,
or limitations, or short of statutory right,” 5 U.S.C.
§ 706(2)(C), or “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law,” id.
§ 706(2)(A). The party challenging the agency action
bears the burden of proof. See Abington Crest Nursing
& Rehab. Ctr. v. Sebelius, 575 F.3d 717, 722 (D.C. Cir.
2009).
IV. Analysis
Plaintiffs challenge the Final Rule on two grounds:
(1) defendants acted in excess of their statutory authority under the Medicaid Act; and (2) the Final Rule
is arbitrary and capricious because (a) the agency’s justiﬁcation of the Final Rule is contravened by the record
evidence, (b) the Final Rule is not a product of reasoned
decisionmaking, and (c) the Final Rule is not merely a
clariﬁcation of existing policy. As set forth below, because the Court ﬁnds that the Final Rule is inconsistent with the plain language of the Medicaid Act,
the Court need not reach plaintiffs’ second argument.
See, e.g., Am. Petroleum Inst. v. S.E.C., 953 F.Supp.2d 5,
23 (D.D.C. 2013) (“Because the Court has invalidated
the Rule, other APA arguments cannot change the disposition.”).

50a
A. The Final Rule is Inconsistent with the
Plain Language of the Medicaid Act.
Plaintiffs and defendants both argue that the relevant statutory language is clear and unambiguously
compels a decision in their respective favor. Plaintiffs
contend that “the DSH provisions of the Medicaid Act
are unambiguous that only Medicaid payments are
netted out in the Medicaid shortfall component” of the
hospital-speciﬁc limit. Pls.’ Mem. at 16, ECF No. 12-1.
Defendants, on the other hand, argue that the Medicaid Act “is unambiguous that only ‘uncompensated’
costs are to be included” in calculating the hospitalspeciﬁc limit. Defs.’ Opp. at 13, ECF No. 15.
A court’s review of whether an agency has acted
within its statutory jurisdiction falls under the wellworn framework set out in Chevron U.S.A., Inc. v. Natural Resources Def. Council, Inc., 467 U.S. 837, 104
S.Ct. 2778, 81 L.Ed.2d 694 (1984). Under Chevron’s
two-step framework, a reviewing court must ﬁrst determine “whether Congress has directly spoken to the
precise question at issue.” Id. at 843, 104 S.Ct. 2778.
To decide whether Congress has spoken to the precise
question, the court must “employ[ ] traditional tools of
statutory construction.” Chevron, 467 U.S. at 843 n.9,
104 S.Ct. 2778. These tools include “examination of the
statute’s text, legislative history, and structure, as well
as its purpose.” Petit v. U.S. Dep’t of Educ., 675 F.3d
769, 781 (D.C. Cir. 2012); see also Pharm. Research &
Mfrs. of Am. v. Fed. Trade Comm’n, 44 F.Supp.3d 95,
112 (D.D.C. 2014) (tools of statutory construction “include evaluation of the plain statutory text at issue,

51a
the purpose and structure of the statute as a whole,
while giving effect, if possible, to every clause and word
of a statute, and—where appropriate—the drafting
history”).
Importantly, to prevail under Chevron step one,
plaintiffs “must show that the statute unambiguously
forecloses the agency’s interpretation.” Petit, 675 F.3d
at 781 (citation and internal quotation marks omitted).
The statute may foreclose the agency’s interpretation
if the statute “prescrib[es] a precise course of conduct
other than the one chosen by the agency” or if the statute “grant[s] the agency a range of interpretive discretion that the agency has clearly exceeded.” Vill. of
Barrington, Ill. v. Surface Transp. Bd., 636 F.3d 650,
659 (D.C. Cir. 2011). “[I]f the agency has either violated
Congress’s precise instructions or exceeded the statute’s clear boundaries then, as Chevron puts it, ‘that is
the end of the matter’—the agency’s interpretation is
unlawful.” Id. at 660 (quoting Chevron, 467 U.S. at 842,
104 S.Ct. 2778). On the other hand, if the statute’s
“ambiguity has left the agency with a range of possibilities” and if the “agency’s interpretation falls within
that range, then the agency will have survived Chevron step one.” Id.
Thus, under Chevron step one, the threshold determination—whether the Secretary’s determination
that the calculation of the hospital-speciﬁc limit should
include only costs not otherwise reimbursed by private
insurers is consistent with the Medicaid Act—turns on
whether Congress has directly spoken on the issue.
To make this determination, the Court examines the

52a
statutory text, the structure and context of the statute
as a whole, and the legislative history in turn.
(1)

Statutory Text

The 1993 amendments to Medicaid imposed hospitalspeciﬁc limits on the amount of payment adjustments
received by DSH hospitals. Specifically, the statute
makes clear that a DSH payment cannot exceed:
the costs incurred during the year of furnishing hospital services (as determined by
the Secretary and net of payments under
this subchapter, other than under this
section, and by uninsured patients) by the
hospital to individuals who either are eligible
for medical assistance under the State plan or
have no health insurance (or other source of
third party coverage) for services provided
during the year.
42 U.S.C. § 1396r-4(g)(1)(A) (emphases added).
Plaintiffs argue that this section “unambiguously
speciﬁes the ‘payments’ that are to be included in the
calculation of a hospital’s HSL”—“i.e., Medicaid payments and payments made by or on behalf of uninsured patients.” Pls.’ Mem. at 16-17, ECF No. 12-1. In
other words, because the statutory provision sets forth
a formula for calculating a hospital’s HSL, and because
that formula makes clear what payments can be considered, the Final Rule’s inclusion of payments by third
parties “contravenes the plain language of the statute.”
Id. at 17. Moreover, plaintiffs claim that the statute

53a
plainly forecloses defendants’ attempt to “rewrite” the
statutory formula by mandating that third-party payments be subtracted from the “cost” side of the equation. Id.
Defendants argue that the heading, which refers
only to “uncompensated” costs, along with the language
of the audit provision makes clear that “Congress did
not intend to treat care that is well compensated as
uncompensated.” Defs.’ Opp. at 13-14, ECF No. 15.
The Court agrees with plaintiffs. On its face, the
statute clearly indicates which payments can be subtracted from the total costs incurred during the year
by hospitals: (1) “payments under this subchapter,”
i.e., payments made by Medicaid; and (2) payments
made by uninsured patients. The statute nowhere
mentions subtracting other third-party payments
made on behalf of Medicaid-eligible patients from the
total costs incurred. Id.
Furthermore, while the statute expressly delegates to the Secretary the authority to determine
“costs,” the remainder of the statutory text forecloses
the reading offered by defendants in the Final Rule.
That text, after all, indicates that only payments made
by Medicaid and by uninsured patients may be netted
out from “costs” to arrive at the hospital-speciﬁc limit.
To allow the Secretary to redeﬁne “costs” to net out
a third category of payments—i.e., “third-party payments, including but not limited to, payments by Medicare and private insurance,” 82 Fed. Reg. 16114-02,
16117—would “render the Congressional deﬁnition of

54a
‘payments’ in the very same clause superﬂuous.” Children’s Hosp. of the King’s Daughters, Inc. v. Price, 258
F.Supp.3d 672, 687 (E.D. Va. 2017); see also New Hampshire Hosp. Ass’n v. Burwell, No. 15-CV-460-LM, 2016
WL 1048023, at *12 (D.N.H. Mar. 11, 2016) (“The Medicaid Act separately describes the ‘payments’ that are
subtracted from the ‘costs’ to obtain the Medicaid
Shortfall. Congress could not have intended to grant
the Secretary the discretion to include other payments
within the term “costs,” while separately deﬁning payments. If it did, the deﬁnition of payments that must
be subtracted from costs to determine the Medicaid
Shortfall would be surplusage.”).
Because the Court must “give effect, if possible, to
every clause and word of a statute,” see United States
v. Menasche, 348 U.S. 528, 538-39, 75 S.Ct. 513, 99 L.Ed.
615 (1955), and because defendants’ interpretation of
the statute would render portions of the statutory language superﬂuous, the Court rejects defendants’ reading of the statute to permit the Secretary to deﬁne
“costs” to include certain “payments” when “payments”
are deﬁned in the statutory language.
(2)

Statutory Structure and Context

The fact that Congress speciﬁcally provided for
subtracting Medicaid payments but not payments by
third parties becomes all the more salient upon examination of the subsequent statutory section. That section permits additional DSH payments to certain stateowned hospitals during a transitional period so long as

55a
the state certiﬁes that the additional payments are
used for “health services.” 42 U.S.C. § 1396r-4(g)(2). In
particular, section 1396r-4(g)(2)(A) provides, in relevant part, as follows:
In determining the amount that is used for
[health] services during a year, there shall
be excluded any amounts received . . . from
third party payors (not including the State
plan under this subchapter) that are used for
providing such services during the year.
42 U.S.C. § 1396r-4(g)(2)(A) (emphasis added).
Thus, while Congress expressly excluded amounts received from third-party payors in section 1396r-4(g)(2)(A),
it declined to do so in section 1396r-4(g)(1)(A). That
omission is signiﬁcant. Indeed, it is well-settled that,
“[w]here Congress includes particular language in one
section of a statute but omits it in another section of
the same Act, it is generally presumed that Congress
acts intentionally and purposely in the disparate inclusion or exclusion.” Russello v. United States, 464 U.S.
16, 23, 104 S.Ct. 296, 78 L.Ed.2d 17 (1983) (citation and
internal quotation marks omitted); see also Jama v.
Immigration & Customs Enforcement, 543 U.S. 335,
341, 125 S.Ct. 694, 160 L.Ed.2d 708 (2005) (“We do not
lightly assume that Congress has omitted from its
adopted text requirements that it nonetheless intends
to apply, and our reluctance is even greater when Congress has shown elsewhere in the same statute that it
knows how to make such a requirement manifest.”);
D.C. Hosp. Ass’n. v. D.C., 224 F.3d 776, 780 (D.C. Cir.
2000) (fact that Congress had speciﬁed that only a

56a
State’s “direct” payments were to be taken into account
in preceding section of statute was compelling evidence
that Congress did not intend to limit the computation
of payments in such a way under the section at issue,
which did not include such a limitation).
To be clear, the fact that Congress speciﬁcally
excluded payments by third party insurers in subsection (g)(2) does not necessarily demonstrate intent
to exclude payments by third party insurers in other
subsections. See, e.g., Waterkeeper All. v. Envtl. Prot.
Agency, 853 F.3d 527, 534-35 (D.C. Cir. 2017) (“The
canon of expressio unius est exclusio alterius is ‘an
especially feeble helper in an administrative setting,
where Congress is presumed to have left to reasonable
agency discretion questions that it has not directly
resolved.’ ”) (citation omitted). Indeed, had Congress
done nothing more than instruct the Secretary to determine the “costs incurred” by each hospital receiving
DSH funds, the Court could reasonably conclude that
the Secretary had discretion to determine, consistent
with the purpose of the statute, which payments ought
to be subtracted in completing that calculation. Here,
however, by granting the Secretary discretion to determine “costs,” Congress speciﬁcally mandated which
payments should be subtracted to arrive at the hospital-speciﬁc limit. Thus, it is compelling that Congress
did not include payments by third-party insurers in
subsection (g)(1), despite excluding precisely such payments in the subsection (g)(2).
Defendants attempt to muddy the waters by pointing to other aspects of the statutory structure that they

57a
claim show that Congress intended for the hospitalspeciﬁc limit to be based on “uncompensated costs.”
Defs.’ Opp. at 13-14. Speciﬁcally, defendants point to
the heading of section 1396r-4(g)(1)(A)—“Amount of
adjustment subject to uncompensated costs”—and to
the audit requirements that require states to certify
that “[o]nly the uncompensated care costs . . . are
included in the calculation of the hospital-speciﬁc limits” described in § 1396r-4(g)(1)(A)). See id. (citing 42
U.S.C. § 1396r-4(g)(1) and § 1396r-4(g)(1)(A)). Neither
argument is persuasive.
First, although the heading of the section may
“supply cues” as to Congress’ intent, Yates v. United
States, ___ U.S. ___, 135 S.Ct. 1074, 1083, 191 L.Ed.2d
64 (2015), a reviewing court must “place[ ] less weight
on captions” than on statutory text, Lawson v. FMR
LLC, 571 U.S. 429, 134 S.Ct. 1158, 1169, 188 L.Ed.2d
158 (2014). In Lawson, the defendant pointed to two
statutory headings that read, in relevant part, “Protection for Employees of Publicly Traded Companies” to
argue that the statutory provisions were limited to
“employees of public companies.” Id. Rejecting this
conclusion, Justice Ginsburg explained that other aspects of the statute made it “apparent” that the statutory headings were “under-inclusive[].” Id. Accordingly,
the headings were nothing more than “a short-hand
reference to the general subject matter of the provision, not meant to take the place of the more detailed
provisions of the text.” Id. (citation and internal quotation marks omitted). So here too. While the heading
of the section at issue refers to “uncompensated costs,”

58a
the statutory text indicates precisely which payments
Congress intended to be subtracted to derive a hospital’s costs. Consequently, the Court will not rely on the
provision’s heading to alter the plain meaning of the
statutory text.
Second, the legislative history belies defendants’
argument with respect to the language used in the audit provision. This is because the summary of the law
contained in the Conference Report reiterates the statutory deﬁnition of uncompensated care costs—i.e., “the
costs of providing inpatient and outpatient services to
Medicaid and uninsured patients at that hospital, less
payments received from or on behalf of Medicaid
and uninsured patients.” H.R. Conf. Rep. 108-391,
808, reprinted at 2003 U.S.C.C.A.N. 1808, 2160 (emphasis added). Moreover, as plaintiffs point out, the
auditor-reporting protocol makes clear that “Medicaid
IP/OP hospital costs (including Medicaid managed
care costs) must be measured against Medicaid IP/
OP revenue received for such services” in determining the existence of a Medicaid shortfall. Pls.’ Mem. at
21 (citing General DSH Audit and Rep. Protocol, CMS2198-F), ECF No. 12-1. Again, neither the legislative
history not the auditor-reporting protocol mention exclusion of third-party payments.
(3)

Legislative History

The legislative history accompanying the amendment setting hospital-speciﬁc limits demonstrates
that Congress intended to ensure hospitals providing

59a
inpatient services to a disproportionate share of “Medicaid and other low-income patients with special needs”
were receiving DSH payments. H.R. Rep. No. 103-213,
at 211 (1993), reprinted in 1993 U.S.C.C.A.N. 378, 538.
Congress noted two concerns that prompted the amendment, neither of which are relevant here.
First, Congress was “concerned by reports that
some States [we]re making DSH payment adjustments
to hospitals that do not provide inpatient services to
Medicaid beneﬁciaries.” Id. According to the Committee, the purpose of the supplemental payments was “to
assist those facilities with high volumes of Medicaid
patients in meeting the costs of providing care to the
uninsured patients that they serve, since th[ose] facilities [we]re unlikely to have large numbers of privately insured patients through which to offset their
operating losses on the uninsured.” Id. Thus, Congress prohibited states from designating a hospital as
a disproportionate-share hospital eligible for supplemental Medicaid funds unless “at least 1 percent of the
facility’s inpatient days [we]re attributable to Medicaid patients.” Id. Here, both parties agree that plaintiffs “treat an extremely high percentage of Medicaid
patients” and “are deemed DSH hospitals that are eligible to receive DSH payments.” Defs.’ Opp. at 24; Pls.’
Mem. at 23-24.
Second, Congress was also concerned by “reports
that some States have made DSH payment adjustments to State psychiatric or university hospitals in
amounts that exceed the net costs, and in some instances the total costs, of operating the facilities.” H.R.

60a
Rep. No. 103-213, at 211. Those excess Medicaid DSH
payments were then “transferred to the State general
fund, where they may be used to fund public health or
mental health services, to draw down more Federal
Medicaid matching funds, or to ﬁnance other functions
of State government, such as road construction and
maintenance.” Id. at 211-212. Such use of federal
Medicaid funds was, according to Congress, “a clear
abuse of the program.” Id. at 212. Here, there is no
indication that plaintiffs are transferring DSH funds
to “ﬁnance other functions of State government”; accordingly, this concern is also irrelevant to the Court’s
analysis.
B. The Proper Remedy is Vacatur.
Defendants assert that, should the Court ﬁnd the
Final Rule invalid, “the appropriate remedy would be
to set aside the Final Rule as it applies to Plaintiffs.” Defs.’ Opp. at 32 n.11, ECF No. 15. According to
defendants, because “ ‘litigation is conducted by and on
behalf of the individual named parties only,’ ” any remedy should be limited to “ ‘provid[ing] complete relief to
the plaintiff[s]’ ” only. Id. (quoting Califano v. Yamasaki, 442 U.S. 682, 700-701, 99 S.Ct. 2545, 61 L.Ed.2d
176 (1979)).
Under the APA, a court must “hold unlawful and
set aside agency action” that is found to be “in excess
of statutory jurisdiction, authority or limitations, or
short of statutory right.” 5 U.S.C. § 706(2)(C) (emphasis added). Accordingly, “ ‘[w]hen a reviewing court

61a
determines that agency regulations are unlawful, the
ordinary result is that the rules are vacated—not that
their application to the individual petitioners is proscribed.’ ” Nat’l Min. Ass’n v. U.S. Army Corps of Eng’rs,
145 F.3d 1399, 1409 (D.C. Cir. 1998) (quoting Harmon
v. Thornburgh, 878 F.2d 484, 495 n. 21 (D.C. Cir. 1989)).
In National Mining Association, the district court invalidated a Corps of Engineers regulation and entered
an injunction prohibiting the Corps and the Environmental Protection Agency from enforcing the regulation nationwide. 145 F.3d at 1408. The D.C. Circuit
upheld that nationwide application, notwithstanding
the fact that nonparties to the litigation would speciﬁcally be affected. Id. at 1409-10.
Defendants argue that vacatur is particularly
inappropriate here given that “other federal district
judges are considering the questions that are at issue
in this case,” and an order vacating the Final Rule here
“would effectively prevent those other courts from
reaching their own decisions.” Defs.’ Opp. at 32 n.11.
But in National Mining Association, the D.C. Circuit
addressed this very argument, pointing out that a District of Columbia court’s “refusal to sustain a broad
injunction is likely merely to generate a ﬂood of duplicative litigation” given that venue is often proper in
this court for challenges to agency actions. 145 F.3d
at 1409. Accordingly, some diminishment in the scope
of the “non-acquiescence doctrine” was “an inevitable
consequence of the venue rules in combination with
the APA’s command that rules ‘found to be . . . in excess

62a
of statutory jurisdiction’ shall be not only ‘h[e]ld unlawful but ‘set aside.’ ” Id. at 1410.
Defendants further contend that, even if vacatur
of an unlawful regulation is the “ordinary result,” it
need not always be required. Defs.’ Summ. J. Reply at
17 n.9, ECF No. 21. The Court agrees that “[a]n inadequately supported rule . . . need not necessarily be vacated.” Allied-Signal, Inc. v. U.S. Nuclear Regulatory
Comm’n, 988 F.2d 146, 150-51 (D.C. Cir. 1993). Rather,
“[t]he decision whether to vacate depends on ‘the seriousness of the [regulation’s] deﬁciencies (and thus the
extent of doubt whether the agency chose correctly)
and the disruptive consequences of ’ ” vacatur. Id.
(quoting International Union, UMW v. FMSHA, 920
F.2d 960, 967 (D.C. Cir. 1990)); see also Humane Soc’y
of the United States v. Jewell, 76 F.Supp.3d 69, 136
(D.D.C. 2014) (“The law in this Circuit directs consideration of two principal factors in deciding whether to
vacate a ﬂawed agency action: (1) the seriousness of
the . . . deﬁciencies’ of the action, that is, how likely it
is the [agency] will be able to justify its decision on remand; and (2) the disruptive consequences of vacatur.”)
(citations and internal quotation marks omitted).
Here, application of these factors militates
strongly in favor of vacatur.
First, the Final Rule’s deﬁciency is not merely procedural; rather, as explained above, the Court ﬁnds
that the agency acted outside of the scope of its statutory authority under the Medicaid Act. Thus, this is
not a case where the agency could conceivably “be able

63a
to substantiate its decision on remand.” Allied-Signal,
988 F.2d at 151. To the contrary, “the agency cannot
arrive at the same conclusions reached in the Final
Rule because the actions taken were not statutorily
authorized.” Humane Soc’y, 76 F.Supp.3d at 137.
Second, the Court concludes that it is unlikely
that vacating the rule would have “disruptive consequences” given that the Final Rule only became effective on June 2, 2017—and given that defendants were
already previously enjoined from enforcing the policies
underlying the Final Rule as embodied in their FAQs.
Accordingly, vacatur of the Final Rule is the appropriate remedy in this matter.
V.

CONCLUSION

Accordingly, for the reasons set forth in this Memorandum Opinion, plaintiffs’ motion for summary
judgment is GRANTED, and defendants’ motion for
summary judgment is DENIED. The Final Rule
promulgated by CMS, published at 82 Fed. Reg. 16114,
16117, is VACATED. Defendants’ motion to strike is
GRANTED. Plaintiffs’ motions for a preliminary injunction and for a hearing are DENIED AS MOOT.
An appropriate Order was entered on March 2, 2018.
SO ORDERED.

64a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
CHILDREN’S HOSPITAL
)
ASSOCIATION OF TEXAS;
CHILDREN’S HEALTH CARE )
d/b/a CHILDREN’S HOSPITAL )
AND CLINICS OF MINNESOTA; ) Civil Action No.
)
GILLETTE CHILDREN’S
17-844 (EGS)
SPECIALTY HEALTHCARE; )
CHILDREN’S HOSPITAL OF )
THE KING’S DAUGHTERS, )
)
INC.; and SEATTLE
)
CHILDREN’S HOSPITAL,
)
Plaintiffs,
)
)
v.
)
ALEX AZAR, in his ofﬁcial
)
capacity, Secretary of Health )
and Human Services; SEEMA
)
VERMA, in her official capacity,
Administrator of the Centers for )
Medicare and Medicaid Services; )
and CENTERS FOR MEDICARE )
AND MEDICAID SERVICES, )
)
Defendants.
)

65a
FINAL JUDGMENT
(Filed Mar. 6, 2018)
Pursuant to Federal Rule of Civil Procedure 58
and for the reasons stated in the accompanying Memorandum Opinion docketed this same day, it is hereby
ORDERED that the Clerk shall enter ﬁnal judgment in favor of plaintiffs and against defendants.
This is a ﬁnal appealable Order. See Fed. R. App. P.
4(a).
SO ORDERED.
Signed: Emmet G. Sullivan
United States District Judge
March 6, 2018

66a
APPENDIX E
UNITED STATES DISTRICT COURT
for the
District of Columbia
Children’s Hospital
Association Of Texas et al
Plaintiff
v.
Thomas E. Price et al
Defendant

)
)
) Civil Action No.
) CA 147-0844 (EGS)
)
)
)

JUDGMENT IN A CIVIL ACTION
(Filed Mar. 7, 2018)
The court has ordered that (check one):
 the plaintiff (name) ____________________________
recover from the defendant (name) _________________
the amount of _____________________________ dollars
($ _________), which includes prejudgment interest at
the rate of ____ %, plus postjudgment interest at the
rate of ____ %, along with costs.
 the plaintiff recover nothing, the action be dismissed on the merits, and the defendant (name)
_____________________________ recover costs from the
plaintiff (name) __________________________________
🗹 other: Ordered that the Clerk shall enter ﬁnal
judgment in favor of plaintiffs and against
defendants. This is a ﬁnal appealable Order.

67a
This action was (check one):
 tried by a jury with Judge __________________ presiding, and the jury has rendered a verdict.
 tried by Judge ________________ without a jury
and the above decision was reached.
🗹 decided by Judge Emmet G. Sullivan on a motion
for
plaintiffs’ motion for summary judgment is
GRANTED, and defendants’ motion for summary
judgment is DENIED.
Date:

03/07/2018

ANGELA D. CAESAR,
CLERK OF COURT
MARK COATES
Signature of Clerk
or Deputy Clerk

68a
APPENDIX F
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 18-5135

September Term, 2019
1:17-cv-00844-EGS
Filed On: November 8, 2019

Children’s Hospital Association
of Texas, et al.,
Appellees
v.
Alex Michael Azar, II, in his ofﬁcial
capacity, Secretary, Department of
Health and Human Services, et al.,
Appellants
BEFORE: Henderson and Rogers, Circuit Judges;
Sentelle, Senior Circuit Judge
ORDER
Upon consideration of appellees’ petition for panel
rehearing ﬁled on September 27, 2019, and the corrected response thereto, it is

69a
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken R. Meadows
Deputy Clerk

70a
APPENDIX G
1.

42 U.S.C. 1396a (2017) provides in pertinent part:

State plans for medical assistance
(a)

Contents

A State plan for medical assistance must—
* * * * *
(13)

provide—

(A) for a public process for determination
of rates of payment under the plan for hospital
services, nursing facility services, and services of
intermediate care facilities for the mentally retarded under which—
* * * * *
(iv) in the case of hospitals, such rates
take into account (in a manner consistent
with section 1396r-4 of this title) the situation
of hospitals which serve a disproportionate
number of low-income patients with special
needs;
* * * * *
2. 42 U.S.C. 1396r-4 (2017) provides in pertinent part:
Adjustment in payment for inpatient hospital
services furnished by disproportionate share
hospitals
(a)

Implementation of requirement

(1) A State plan under this subchapter shall not
be considered to meet the requirement of section

71a
1396a(a)(13)(A)(iv) of this title (insofar as it requires
payments to hospitals to take into account the situation of hospitals which serve a disproportionate number of low income patients with special needs), as of
July 1, 1988, unless the State has submitted to the
Secretary, by not later than such date, an amendment
to such plan that—
(A) speciﬁcally deﬁnes the hospitals so described (and includes in such definition any disproportionate share hospital described in subsection
(b)(1) of this section which meets the requirements
of subsection (d) of this section), and
(B) provides, effective for inpatient hospital
services provided not later than July 1, 1988, for
an appropriate increase in the rate or amount of
payment for such services provided by such hospitals, consistent with subsection (c) of this section.
* * * * *
(b)

Hospitals deemed disproportionate share

(1) For purposes of subsection (a)(1) of this section,
a hospital which meets the requirements of subsection
(d) of this section is deemed to be a disproportionate
share hospital if—
(A) the hospital’s medicaid inpatient utilization rate (as deﬁned in paragraph (2)) is at least
one standard deviation above the mean medicaid
inpatient utilization rate for hospitals receiving
medicaid payments in the State; or
(B) the hospital’s low-income utilization rate
(as deﬁned in paragraph (3)) exceeds 25 percent.

72a
(2) For purposes of paragraph (1)(A), the term
“medicaid inpatient utilization rate” means, for a hospital, a fraction (expressed as a percentage), the numerator of which is the hospital’s number of inpatient
days attributable to patients who (for such days) were
eligible for medical assistance under a State plan approved under this subchapter in a period (regardless of
whether such patients receive medical assistance on a
fee-for-service basis or through a managed care entity),
and the denominator of which is the total number of
the hospital’s inpatient days in that period. In this
paragraph, the term “inpatient day” includes each day
in which an individual (including a newborn) is an inpatient in the hospital, whether or not the individual
is in a specialized ward and whether or not the individual remains in the hospital for lack of suitable
placement elsewhere.
* * * * *
(c)

Payment adjustment

Subject to subsections (f ) and (g) of this section, in
order to be consistent with this subsection, a payment
adjustment for a disproportionate share hospital must
either—
(1) be in an amount equal to at least the
product of (A) the amount paid under the State
plan to the hospital for operating costs for inpatient
hospital services (of the kind described in section
1395ww(a)(4) of this title), and (B) the hospital’s
disproportionate share adjustment percentage (established under section 1395ww(d)(5)(F)(iv) of this
title);

73a
(2) provide for a minimum speciﬁed additional payment amount (or increased percentage
payment) and (without regard to whether the
hospital is described in subparagraph (A) or (B) of
subsection (b)(1) of this section) for an increase in
such a payment amount (or percentage payment)
in proportion to the percentage by which the hospital’s medicaid utilization rate (as deﬁned in subsection (b)(2) of this section) exceeds one standard
deviation above the mean medicaid inpatient utilization rate for hospitals receiving medicaid payments in the State or the hospital’s low-income
utilization rate (as deﬁned in paragraph (b)(3) of
this section); or
(3) provide for a minimum speciﬁed additional payment amount (or increased percentage
payment) that varies according to type of hospital
under a methodology that—
(A) applies equally to all hospitals of
each type; and
(B) results in an adjustment for each
type of hospital that is reasonably related to
the costs, volume, or proportion of services
provided to patients eligible for medical assistance under a State plan approved under this
subchapter or to low-income patients,
except that, for purposes of paragraphs (1)(B) and
(2)(A) of subsection (a) of this section, the payment adjustment for a disproportionate share hospital is consistent with this subsection if the appropriate increase
in the rate or amount of payment is equal to at least
one-third of the increase otherwise applicable under

74a
this subsection (in the case of such paragraph (1)(B))
and at least two-thirds of such increase (in the case of
paragraph (2)(A)). In the case of a hospital described
in subsection (d)(2)(A)(i) of this section (relating to
children’s hospitals), in computing the hospital’s disproportionate share adjustment percentage for purposes of paragraph (1)(B) of this subsection, the
disproportionate patient percentage (deﬁned in section
1395ww(d)(5)(F)(vi) of this title) shall be computed
by substituting for the fraction described in subclause
(I) of such section the fraction described in subclause
(II) of that section. If a State elects in a State plan
amendment under subsection (a) of this section to provide the payment adjustment described in paragraph
(2), the State must include in the amendment a detailed description of the speciﬁc methodology to be
used in determining the speciﬁed additional payment
amount (or increased percentage payment) to be made
to each hospital qualifying for such a payment adjustment and must publish at least annually the name of
each hospital qualifying for such a payment adjustment and the amount of such payment adjustment
made for each such hospital.
(d) Requirements to qualify as disproportionate
share hospital
(1) Except as provided in paragraph (2), no hospital may be deﬁned or deemed as a disproportionate
share hospital under a State plan under this subchapter or under subsection (b) of this section unless the
hospital has at least 2 obstetricians who have staff
privileges at the hospital and who have agreed to

75a
provide obstetric services to individuals who are entitled to medical assistance for such services under such
State plan.
(2)(A)
tal—

Paragraph (1) shall not apply to a hospi-

(i) the inpatients of which are predominantly individuals under 18 years of age; or
(ii) which does not offer nonemergency obstetric services to the general population as of
December 22, 1987.
(B) In the case of a hospital located in a rural
area (as deﬁned for purposes of section 1395ww of this
title), in paragraph (1) the term “obstetrician” includes
any physician with staff privileges at the hospital to
perform nonemergency obstetric procedures.
(3) No hospital may be deﬁned or deemed as a
disproportionate share hospital under a State plan under this subchapter or under subsection (b) or (e) of
this section unless the hospital has a medicaid inpatient utilization rate (as deﬁned in subsection (b)(2) of
this section) of not less than 1 percent.
* * * * *
(g)

Limit on amount of payment to hospital
(1) Amount of adjustment subject to uncompensated costs
(A)

In general

A payment adjustment during a ﬁscal
year shall not be considered to be consistent

76a
with subsection (c) of this section with respect
to a hospital if the payment adjustment exceeds the costs incurred during the year of
furnishing hospital services (as determined
by the Secretary and net of payments under
this subchapter, other than under this section,
and by uninsured patients) by the hospital to
individuals who either are eligible for medical
assistance under the State plan or have no
health insurance (or other source of third
party coverage) for services provided during
the year. For purposes of the preceding sentence, payments made to a hospital for services provided to indigent patients made by a
State or a unit of local government within a
State shall not be considered to be a source of
third party payment.
(B) Limit to public hospitals during
transition period
With respect to payment adjustments
during a State ﬁscal year that begins before
January 1, 1995, subparagraph (A) shall apply only to hospitals owned or operated by a
State (or by an instrumentality or a unit of
government within a State).
(C)

Modiﬁcations for private hospitals

With respect to hospitals that are not
owned or operated by a State (or by an instrumentality or a unit of government within a
State), the Secretary may make such modiﬁcations to the manner in which the limitation
on payment adjustments is applied to such

77a
hospitals as the Secretary considers appropriate.
(2) Additional amount during transition
period for certain hospitals with high disproportionate share
(A)

In general

In the case of a hospital with high disproportionate share (as deﬁned in subparagraph
(B)), a payment adjustment during a State
fiscal year that begins before January 1, 1995,
shall be considered consistent with subsection
(c) of this section if the payment adjustment
does not exceed 200 percent of the costs of furnishing hospital services described in paragraph (1)(A) during the year, but only if the
Governor of the State certiﬁes to the satisfaction of the Secretary that the hospital’s applicable minimum amount is used for health
services during the year. In determining the
amount that is used for such services during
a year, there shall be excluded any amounts
received under the Public Health Service Act
[42 U.S.C.A. § 201 et seq.], subchapter V of
this chapter, subchapter XVIII of this chapter,
or from third party payors (not including the
State plan under this subchapter) that are
used for providing such services during the
year.
(B) “Hospital with high disproportionate share” deﬁned
In subparagraph (A), a hospital is a “hospital with high disproportionate share” if—

78a
(i) the hospital is owned or operated
by a State (or by an instrumentality or a
unit of government within a State); and
(ii)

the hospital—

(I) meets the requirement described in subsection (b)(1)(A) of this
section, or
(II) has the largest number of
inpatient days attributable to individuals entitled to beneﬁts under the
State plan of any hospital in such
State for the previous State ﬁscal
year.
(C) “Applicable minimum amount” deﬁned
In subparagraph (A), the “applicable minimum amount” for a hospital for a ﬁscal year
is equal to the difference between the amount
of the hospital’s payment adjustment for the
ﬁscal year and the costs to the hospital of furnishing hospital services described in paragraph (1)(A) during the ﬁscal year.
* * * * *
(j) Annual reports and other requirements regarding payment adjustments
With respect to ﬁscal year 2004 and each ﬁscal
year thereafter, the Secretary shall require a State,
as a condition of receiving a payment under section
1396b(a)(1) of this title with respect to a payment adjustment made under this section, to do the following:

79a
(1)

Report

The State shall submit an annual report that
includes the following:
(A) An identiﬁcation of each disproportionate share hospital that received a payment adjustment under this section for the
preceding ﬁscal year and the amount of the
payment adjustment made to such hospital
for the preceding ﬁscal year.
(B) Such other information as the Secretary determines necessary to ensure the
appropriateness of the payment adjustments
made under this section for the preceding ﬁscal year.
(2)

Independent certiﬁed audit

The State shall annually submit to the Secretary an independent certiﬁed audit that veriﬁes
each of the following:
(A) The extent to which hospitals in the
State have reduced their uncompensated care
costs to reﬂect the total amount of claimed expenditures made under this section.
(B) Payments under this section to hospitals that comply with the requirements of
subsection (g) of this section.
(C) Only the uncompensated care costs
of providing inpatient hospital and outpatient
hospital services to individuals described in
paragraph (1)(A) of such subsection are included in the calculation of the hospitalspeciﬁc limits under such subsection.

80a
(D) The State included all payments under this subchapter, including supplemental
payments, in the calculation of such hospitalspeciﬁc limits.
(E) The State has separately documented and retained a record of all of its costs
under this subchapter, claimed expenditures
under this subchapter, uninsured costs in determining payment adjustments under this
section, and any payments made on behalf of
the uninsured from payment adjustments under this section.
3. 42 C.F.R. 447.299 (2016) provides in pertinent part:
Reporting requirements.
* * * * *
(c) Beginning with each State’s Medicaid State plan
rate year 2005, for each Medicaid State plan rate year,
the State must submit to CMS, at the same time as it
submits the completed audit required under § 455.204,
the following information for each DSH hospital to
which the State made a DSH payment in order to permit veriﬁcation of the appropriateness of such payments:
* * * * *
(6) IP/OP Medicaid fee-for-service (FFS) basic rate
payments. The total annual amount paid to the hospital under the State plan, including Medicaid FFS rate
adjustments, but not including DSH payments or supplemental/enhanced Medicaid payments, for inpatient

81a
and outpatient services furnished to Medicaid eligible
individuals.
(7) IP/OP Medicaid managed care organization
payments. The total annual amount paid to the hospital by Medicaid managed care organizations for inpatient hospital and outpatient hospital services
furnished to Medicaid eligible individuals.
(8) Supplemental/enhanced Medicaid IP/OP payments. Indicate the total annual amount of supplemental/
enhanced Medicaid payments made to the hospital under the State plan. These amounts do not include DSH
payments, regular Medicaid FFS rate payments, and
Medicaid managed care organization payments.
(9) Total Medicaid IP/OP Payments. Provide the
total sum of items identiﬁed in § 447.299(c)(6), (7) and
(8).
(10) Total Cost of Care for Medicaid IP/OP Services. The total annual costs incurred by each hospital
for furnishing inpatient hospital and outpatient hospital services to Medicaid eligible individuals.
(11) Total Medicaid Uncompensated Care. The
total amount of uncompensated care attributable to
Medicaid inpatient and outpatient services. The amount
should be the result of subtracting the amount identiﬁed in § 447.299(c)(9) from the amount identiﬁed in
§ 447.299(c)(10). The uncompensated care costs of
providing Medicaid physician services cannot be included in this amount.

82a
(12) Uninsured IP/OP revenue. Total annual
payments received by the hospital by or on behalf of
individuals with no source of third party coverage for
inpatient and outpatient hospital services they receive.
This amount does not include payments made by a
State or units of local government, for services furnished to indigent patients.
(13) Total Applicable Section 1011 Payments.
Federal Section 1011 payments for uncompensated inpatient and outpatient hospital services provided to
Section 1011 eligible aliens with no source of third
party coverage for the inpatient and outpatient hospital services they receive.
(14) Total cost of IP/OP care for the uninsured.
Indicate the total costs incurred for furnishing inpatient hospital and outpatient hospital services to individuals with no source of third party coverage for the
hospital services they receive.
(15) Total uninsured IP/OP uncompensated care
costs. Total annual amount of uncompensated IP/OP
care for furnishing inpatient hospital and outpatient
hospital services to individuals with no source of third
party coverage for the hospital services they receive.
(i) The amount should be the result of subtracting paragraphs (c)(12) and (c)(13), from paragraph (c)(14) of this section.
(ii) The uncompensated care costs of providing physician services to the uninsured cannot be
included in this amount.

83a
(iii) The uninsured uncompensated amount
also cannot include amounts associated with unpaid co-pays or deductibles for individuals with
third party coverage for the inpatient and/or outpatient hospital services they receive or any other
unreimbursed costs associated with inpatient
and/or outpatient hospital services provided to individuals with those services in their third party
coverage beneﬁt package.
(iv) The uncompensated care costs do not include bad debt or payer discounts related to services furnished to individuals who have health
insurance or other third party payer.
(16) Total annual uncompensated care costs. The
total annual uncompensated care cost equals the total
cost of care for furnishing inpatient hospital and outpatient hospital services to Medicaid eligible individuals and to individuals with no source of third party
coverage for the hospital services they receive less the
sum of regular Medicaid FFS rate payments, Medicaid
managed care organization payments, supplemental/
enhanced Medicaid payments, uninsured revenues,
and Section 1011 payments for inpatient and outpatient hospital services. This should equal the sum of
paragraphs (c)(9),(c)(12), and (c)(13) subtracted from
the sum of paragraphs (c)(10) and (c)(14) of this section.
* * * * *

84a
4. 42 C.F.R. 447.299 (2017) provides in pertinent part:
Reporting requirements.
* * * * *
(c)
* * * * *
(10) Total Cost of Care for Medicaid IP/OP Services. The total annual costs incurred by each hospital
for furnishing inpatient hospital and outpatient hospital services to Medicaid eligible individuals. The total
annual costs are determined on a hospital-speciﬁc basis, not a service-speciﬁc basis. For purposes of this
section, costs—
(i) Are deﬁned as costs net of third-party
payments, including, but not limited to, payments
by Medicare and private insurance.
(ii) Must capture the total burden on the
hospital of treating Medicaid eligible patients
prior to payment by Medicaid. Thus, costs must be
determined in the aggregate and not by estimating the cost of individual patients. For example, if
a hospital treats two Medicaid eligible patients at
a cost of $2,000 and receives a $500 payment from
a third party for each individual, the total cost to
the hospital for purposes of this section is $1,000,
regardless of whether the third party payment received for one patient exceeds the cost of providing
the service to that individual.
* * * * *

